No. ____
IN THE

Supreme Court of the United States
_________

IN RE: NYREE BELTON, Debtor.
________
GE CAPITAL RETAIL BANK,
Petitioner,
v.
NYREE BELTON,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the
Second Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
JOSEPH L. NOGA
JENNER & BLOCK LLP
919 Third Avenue
New York, NY 10022

MATTHEW S. HELLMAN
COUNSEL OF RECORD
JENNER & BLOCK LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001
(202) 639-6000
mhellman@jenner.com
LEIGH J. JAHNIG
JENNER & BLOCK LLP
353 North Clark Street
Chicago, IL 60654

i
QUESTION PRESENTED
Whether provisions of the Bankruptcy Code
providing for a statutorily enforceable discharge of a
debtor’s debts impliedly repeal the Federal Arbitration
Act, 9 U.S.C. § 1 et seq.

ii
PARTIES TO THE PROCEEDINGS BELOW
AND RULE 29.6 STATEMENT
Pursuant to Supreme Court Rule 29.6, petitioner
discloses the following: Petitioner GE Capital Retail
Bank (“GECRB”) is now known as Synchrony Bank.
Synchrony Bank is a wholly owned subsidiary of
Synchrony Financial. Synchrony Financial is a publicly
traded corporation and is not aware of any publicly
traded corporation that owns ten (10) percent or more of
its publicly traded shares.
The petitioner is GE Capital Retail Bank.
The respondent is Nyree Belton.
In the proceedings below this matter was
consolidated with Citigroup Inc. et al. v. Bruce (In re
Bruce), No. 19-0655 (2d Cir.). The appellants in the
consolidated proceedings below were GE Capital Retail
Bank; Citigroup Inc.; and Citibank N.A. The appellees
in the consolidated proceedings below were Nyree
Belton and Kimberly Bruce.

iii
TABLE OF CONTENTS
QUESTION PRESENTED ............................................... i
PARTIES TO THE PROCEEDINGS BELOW
AND RULE 29.6 STATEMENT ............................ii
TABLE OF APPENDICES .............................................v
TABLE OF AUTHORITIES ......................................... vi
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW .......................................................... 1
JURISDICTION ................................................................. 1
STATUTORY PROVISIONS INVOLVED .................. 2
INTRODUCTION .............................................................. 3
STATEMENT OF THE CASE ........................................ 6
A.

Respondent’s Arbitrable Dispute With
GECRB ........................................................................ 6

B.

The Bankruptcy Court Refuses To Compel
Arbitration And The District Court Initially
Reverses ...................................................................... 7

C.

The Second Circuit’s Decision In Anderson
v. Credit One Bank ..................................................... 8

D.

This Court Decides Epic Systems v. Lewis ............ 9

iv
E.

The District Court Vacates Its Order
Compelling Arbitration In Light Of
Anderson, And The Second Circuit Affirms ........ 10

REASONS FOR GRANTING THE PETITION........ 11
I.

The Decision Below Conflicts With This
Court’s Clear Precedent Regarding The
Scope Of The FAA ................................................... 11
A. Epic Requires That Congressional
Intent To Displace Arbitration Must Be
“Clear And Manifest.” ...................................... 11
B. Epic Stands Atop A Mountain Of
Precedent
Affirming
That
The
Importance Of A Policy Goal Does Not
Displace The Federal Arbitration Act........... 14
C. The Decision Below Spurns The Court’s
Precedent Requiring A “Clear And
Manifest Congressional Command.” .............. 16

II.

This Court’s Review Is Needed To Resolve
Persistent Confusion In The Lower Courts
Regarding The Bankruptcy Code’s Ability
To Displace The Federal Arbitration Act ............ 20

III. This Court Should Resolve The Question
Presented Now And In This Case ......................... 26
CONCLUSION ................................................................. 26

v
TABLE OF APPENDICES
Appendix A:
Belton v. GE Capital Retail Bank (In re
Belton), 961 F.3d 612 (2d Cir. 2020) .......................... 1a
Appendix B:
Belton v. GE Capital Retail Bank (In re
Belton), No. 15 CV 1934, 2019 WL 1017293
(S.D.N.Y. Mar. 4, 2019) ............................................. 13a
Appendix C:
Belton v. GE Capital Retail Bank (In re
Belton), No. 15 CV 1934, 2015 WL 6163083
(S.D.N.Y. Oct. 14, 2015) ............................................ 25a
Appendix D:
Order Denying Defendant’s Motion To Compel
Arbitration, Belton v. GE Capital Retail Bank
(In re Belton), Case No. 12-23037, Adv. No. 1408223 (Bankr. S.D.N.Y. Nov. 10, 2014) ................... 48a
Appendix E:
Judgment, Belton v. GE Capital Retail Bank
(In re Belton), No. 15 CV 1934 (S.D.N.Y.
Mar. 6, 2019) ............................................................... 79a

vi
TABLE OF AUTHORITIES
CASES
Ackerman v. Eber (In re Eber), 687 F.3d 1123
(9th Cir. 2012) .......................................................... 23
AKZO Nobel Coatings Inc. v. Color &
Equipment LLC, No. 2:11-CV-00082, 2012
WL 12960780 (N.D. Ala. July 16, 2012) ............... 19
American Express Co. v. Italian Colors
Restaurant, 570 U.S. 228 (2013) ........................... 14
Anderson v. Credit One Bank, N.A. (In re
Anderson), 884 F.3d 382 (2d Cir. 2018) . 8, 9, 16, 22
Bostock v. Clayton County, 140 S. Ct. 1731
(2020) .......................................................................... 5
CompuCredit Corp. v. Greenwood, 565 U.S. 95
(2012) ........................................................................ 14
Continental Insurance Co. v. Thorpe
Insulation Co. (In re Thorpe Insulation
Co.), 671 F.3d 1011 (9th Cir. 2012) ................. 22, 24
Credit One Financial v. Anderson (In re
Anderson), 550 B.R. 228 (S.D.N.Y. 2016) ............. 8
Epic Systems Corp. v. Lewis, 138 S. Ct. 1612
(2018) ............................................................... passim
Flanders v. Lawrence (In re Flanders), 657 F.
App’x 808 (10th Cir. 2016) ..................................... 20

vii
Gandy v. Gandy (In re Gandy), 299 F.3d 489
(5th Cir. 2002) .......................................................... 23
Gilmer v. Interstate/Johnson Lane Corp., 500
U.S. 20 (1991) ............................................... 14, 15, 18
Green Tree Financial Corp.–Alabama v.
Randolph, 531 U.S. 79 (2000) ................................ 15
Matter of Henry, 944 F.3d 587 (5th Cir. 2019) .... 22, 24
Law v. Siegel, 571 U.S. 415 (2014) .............................. 19
MBNA America Bank, N.A. v. Hill, 436 F.3d
104 (2d Cir. 2006) .................................................... 23
In re Mintze, 434 F.3d 222 (3d Cir. 2006) ............ 23, 25
Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc., 473 U.S. 614 (1985) ......... 14, 15, 19
Phillips v. Congelton, L.L.C. (In re White
Mountain Mining Co.), 403 F.3d 164 (4th
Cir. 2005) ............................................................ 22, 24
Shearson/American
Express,
Inc.
v.
McMahon, 482 U.S. 220 (1987) ................. 14, 15, 19
Taggart v. Lorenzen, 139 S. Ct. 1795 (2019) .............. 20
Whiting–Turner Contracting Co. v. Electric
Machinery Enterprises, Inc. (In re Electric
Machinery Enterprises, Inc.), 479 F.3d 791
(11th Cir. 2007) .................................................. 22, 24

viii
STATUTES
7 U.S.C. § 26(n)(2) ......................................................... 12
9 U.S.C. § 2 ................................................................ 2, 16
9 U.S.C. § 4 ...................................................................... 2
11 U.S.C. § 105(a) .................................................. 2, 7, 16
11 U.S.C. § 524(a)(2) ........................................... 1, 16, 19
15 U.S.C. § 1226(a)(2) ................................................... 13
28 U.S.C. § 1254(1) .......................................................... 1
28 U. S. C. § 1334(b)...................................................... 20
OTHER A UTHORITIES
Brief In Opposition To Petition For Writ Of
Certiorari, Credit One Bank, N.A., v.
Anderson, 139 S. Ct. 144 (Mem.) (2018) (No.
17-1652) .................................................................... 26
Alexis Leventhal & Roni A. Elias, Competing
Efficiencies: The Problem of Whether and
When to Refer Disputes to Arbitration in
Bankruptcy Cases, 24 Am. Bankr. Inst. L.
Rev. 133 (2016) ........................................................ 21
Alan N. Resnick, The Enforceability of
Arbitration Clauses in Bankruptcy, 15
Am. Bankr. Inst. L. Rev. 183 (2007) .................... 21

PETITION FOR A WRIT OF CERTIORARI
GE Capital Retail Bank (“GECRB”) petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Second Circuit in this
case.
OPINIONS BELOW
The opinion of the court of appeals is reported at
Belton v. GE Capital Retail Bank (In re Belton), 961
F.3d 612 (2d Cir. 2020) and is reproduced in the
Appendix attached hereto at Pet. App. 1a-12a. The
bankruptcy court’s November 10, 2014 bench ruling on
respondent’s motion to compel arbitration is unreported
and is reproduced at Pet. App. 48a-78a. The October 14,
2015 order of the district court reversing the bankruptcy
court’s order is unreported and reproduced at Pet. App.
25a-47a. The district court’s March 4, 2019 order
granting reconsideration, vacating the earlier district
court order, and denying the motion to compel is
unreported and reproduced at Pet. App. 13a-24a.
JURISDICTION
The United States Court of Appeals for the Second
Circuit entered its final judgment on June 16, 2020. By
Order dated March 19, 2020, this Court provided that
“[i]n light of the ongoing public health concerns relating
to COVID-19 . . . the deadline to file any petition for a
writ of certiorari due on or after [March 19, 2020] . . . is
extended to 150 days from the date of the lower court
judgment, order denying discretionary review, or
denying a timely petition for rehearing.” This Court
therefore has jurisdiction pursuant to 28 U.S.C.
§ 1254(1).

2
STATUTORY PROVISIONS INVOLVED
Section 2 of 9 U.S.C. provides, in relevant part: “A
written provision in . . . a contract evidencing . . . an
agreement in writing to submit to arbitration an existing
controversy arising out of such a contract, transaction,
or refusal, shall be valid, irrevocable, and enforceable,
save upon such grounds as exist at law or in equity for
the revocation of any contract.”
Section 4 of 9 U.S.C. provides, in relevant part: “The
court shall hear the parties, and upon being satisfied that
the making of the agreement for arbitration . . . is not in
issue, the court shall make an order directing the parties
to proceed to arbitration in accordance with the terms of
the agreement.”
Section 105(a) of 11 U.S.C. provides, in relevant part:
“The court may issue any order . . . necessary or
appropriate to carry out the provisions of this title.”
Section 524(a)(2) of 11 U.S.C. provides, in relevant
part:
“A discharge in a case under this title—
...
“(2) operates as an injunction against the
commencement or continuation of an action, the
employment of process, or an act, to collect,
recover or offset any such debt as a personal
liability of the debtor, whether or not discharge of
such debt is waived[.]”

3
INTRODUCTION
“In many cases over many years, this Court has
heard . . . efforts to conjure conflicts between the
Arbitration Act [FAA] and other federal statutes.” Epic
Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1627 (2018). Those
efforts have not met with success: “this Court has
rejected every such effort to date.” Id. (emphasis in
original). Instead, in an unbroken line of precedent, this
Court has held that the FAA and other federal statutes
must be read “harmonious[ly]” such that only an
“irreconcilable conflict” between two statutes that is
“clear and manifest” would justify not giving effect to
the FAA’s “command” of arbitration. Id. at 1619, 1624
(quoting Morton v. Mancari, 417 U.S. 535, 551 (1974)).
In this case, the Second Circuit took the path that
Epic and its predecessors rejected. The court of appeals
held that the Bankruptcy Code’s discharge provision
impliedly repeals the FAA’s mandate of arbitrability.
Rather than look for manifest evidence of an
irreconcilable conflict, the Second Circuit engaged in an
atextual and amorphous purpose-focused inquiry in
which it weighed the values it believed the FAA and the
Code respectively served. In finding a conflict, the
Second Circuit added to a growing body of lower court
law that has treated the arbitrability of bankruptcyrelated disputes as an island unto itself amidst this
Court’s arbitration jurisprudence. These cases employ
a far lower threshold for finding an implied repeal of the
FAA than what this Court has required.
At issue below was respondent’s statutory claim,
brought on behalf of a putative class of debtors, that
GECRB sought to collect a discharged debt in violation

4
of § 524(a)(2) of the Code—a dispute that was otherwise
arbitrable under the parties’ agreement and the FAA.
The Second Circuit acknowledged that there was no hint
in the Code’s text that Congress intended to make such
disputes non-arbitrable, but it held that silence signaled
“ambigu[ity].” Pet. App. 8a. At that point, the court
engaged in an attempt to divine the purpose of the
Bankruptcy Code. Invoking pre-Epic circuit precedent
that it concluded was still binding, the court held that
there was an inherent conflict between the Code and the
FAA because of the importance the Code places upon
providing a fresh start to debtors. Pet. App. 6a-9a. The
court made clear that had it been “writing on a blank
slate” it might have come out the other way, but that it
was obligated to adhere to the purpose-driven approach
taken by its earlier case, which it held survived Epic.
Pet. App. 3a.
The Second Circuit’s decision conflicts with Epic and
other prior decisions of this Court, it is wrong, and it is
worthy of this Court’s review. There is no indication in
the Bankruptcy Code, let alone clear and manifest
evidence, that Congress intended to displace arbitration
for disputes regarding the discharge statute. Those
disputes are important and recurring, but they are just
as amenable to resolution in arbitration as they are in
the federal and state courts where they are routinely
heard.
The Second Circuit justified its atextual approach by
invoking this Court’s statement in Shearson/American
Express, Inc. v. McMahon that “congressional intent”
“may be deduced from ‘the statute’s text or legislative
history, or from an inherent conflict between arbitration

5
and the statute’s underlying purposes.’” Pet. App. 5a-6a
(quoting 482 U.S. 220, 227 (1987) (emphasis added)). But
this Court has never said that the absence of textual
support is irrelevant or merely a neutral factor. It has
said precisely the opposite. Indeed, looking solely to
perceived purpose gives rise to the dangers the Court
warned of in Epic: “Allowing judges to pick and choose
between statutes risks transforming them from
expounders of what the law is into policymakers
choosing what the law should be.” Epic Sys. Corp., 138
S. Ct. at 1624; Bostock v. Clayton Cnty., 140 S. Ct. 1731,
1738 (2020) (rejecting atextual purposive interpretation
because: “After all, only the words on the page
constitute the law adopted by Congress.”).
The Second Circuit’s error is illustrative of a larger
confusion among the circuits, which employ different
tests to determine whether the Code repeals the FAA.
Like the decision below, many of these tests accord
arbitration second-class status relative to the Code.
Review is thus warranted to reaffirm there is not one
rule to determine the arbitrability of bankruptcy-related
claims, and another for all other federal claims. Absent
a “clear and manifest congressional command to displace
the Arbitration Act,” there is no “irreconcilable
conflict[,]” and arbitration agreements should be
enforced according to the terms of the FAA. Epic Sys.
Corp., 138 S. Ct. at 1624.
The petition should be granted.

6
STATEMENT OF THE CASE
A. Respondent’s
GECRB.

Arbitrable

Dispute

With

Respondent opened a credit card account with
GECRB in October 2007 and agreed to arbitrate “any”
1
claim relating to the account. JA45, JA47. After
respondent did not repay her debt to GECRB, GECRB
sold the debt to a third party and informed the credit
reporting agencies of the sale. JA48-49. Respondent
subsequently filed a chapter 7 petition.
JA126.
Respondent listed GECRB as a former creditor for
“[n]otice [o]nly” and stated no amount owed for the
account. See In re Belton, No. 12-23037 (Bankr.
S.D.N.Y.), ECF No. 1 at 17. Respondent’s chapter 7 case
was successfully completed and her case was closed in
September 2012. JA126.
Over a year later, in April 2014, respondent moved to
reopen her bankruptcy case and subsequently filed a
class action adversary proceeding against GECRB. Pet.
App. 28a; JA122. Respondent alleged her credit report
entry for GECRB’s sale of the debt was inaccurate
because it did not note her subsequent bankruptcy. She
further alleged that omission violated § 524(a)(2)’s
prohibition on acts to collect a discharged debt.
Respondent seeks to hold GECRB in contempt for
violating § 524(a)(2), and to obtain a monetary recovery
on behalf of the putative class with respect to every
bankruptcy since the middle of 2007 where the debtor
1

All “JA_” references refer to the Joint Appendix filed in Belton v.
GE Capital Retail Bank (In re Belton), 961 F.3d 612 (2020) (No. 190648), ECF No. 28-29.

7
has a credit report and GECRB sold a debt owed by the
debtor prior to the bankruptcy. JA137; see Pet. App.
28a-29a. Respondent styled her claim as seeking relief
under § 105 of the Code, which permits a court to issue
“any order . . . that is necessary or appropriate to carry
out the provisions of [the Bankruptcy Code].” 11 U.S.C.
§ 105(a).
B. The Bankruptcy Court Refuses To Compel
Arbitration And The District Court Initially
Reverses.
GECRB moved to compel arbitration pursuant to the
parties’ arbitration agreement. See Pet. App. 53a. The
bankruptcy court acknowledged that GECRB’s
arbitration provision covered the dispute at issue, but
denied the motion to compel because it found “implicit[]”
“policy conflicts” between the FAA and the Bankruptcy
Code. See Pet. App. 64a-65a, 78a. In the bankruptcy
court’s view, the FAA was displaced because “discharge
and its related fresh start” were the “policy [which]
underlies the Bankruptcy Code.” Pet. App. 69a. The
bankruptcy court stayed the litigation pending appeal.
GECRB appealed to the district court, which
reversed. The district court acknowledged that, though
the relevant statutes do not expressly discuss
arbitration, “text and legislative history weigh against
the conclusion that Congress intended to preclude
arbitration of Section 524 claims,” and noted that federal
district courts do not have exclusive jurisdiction over
bankruptcy-related civil claims. Pet. App. 37a-39a.
The district court also rejected the notion of an
inherent conflict between the FAA and the relevant

8
provision of the Bankruptcy Code. The court explained
that alleging a violation of a “fundamental” bankruptcy
provision such as the debtor’s “fresh start” “is not
enough to exempt such a claim from arbitration.” Pet.
App. 40a.
C. The Second Circuit’s Decision In Anderson v.
Credit One Bank.
On March 7, 2018, the Second Circuit decided
Anderson v. Credit One Bank, N.A. (In re Anderson),
884 F.3d 382 (2d Cir. 2018). The plaintiff in Anderson
had raised a substantially similar claim to respondent’s
(and was represented by the same counsel) in front of
the same bankruptcy judge who heard respondent’s
case. Also like this case, the plaintiff in Anderson sought
money damages based on § 524(a)(2) claims. See Credit
One Fin. v. Anderson (In re Anderson), 550 B.R. 228,
237 (S.D.N.Y. 2016). The bankruptcy court again denied
a motion to compel arbitration and was affirmed by a
different district court. See Anderson, 884 F.3d at 38586.
On appeal to the Second Circuit, that court found
that neither party had addressed whether the text or
legislative history indicated any congressional intent to
preclude arbitration of § 524(a)(2) disputes at earlier
levels of the proceedings. Id. at 388-89. In that unusual
posture, the Second Circuit declined to address those
arguments, and “only consider[ed] whether there is an
‘inherent conflict between arbitration’ and the
Bankruptcy Code.” Id. at 389 (quoting McMahon, 482
U.S. at 227).

9
Specifically, the Second Circuit, relying on this
Court’s decision in McMahon, held that “an inherent
conflict between arbitration and the statute’s underlying
purposes” was sufficient to reveal congressional intent
to override arbitration. Id. at 388 (“Congressional intent
may be discerned through the ‘text or legislative history,
or from an inherent conflict between arbitration and the
statute’s underlying purposes.’” (quoting McMahon, 482
U.S. at 227 (emphasis added))). Anderson inferred such
a conflict because “1) the discharge injunction is integral
to the bankruptcy court’s ability to provide debtors with
the fresh start that is the very purpose of the Code; 2)
the claim regards an ongoing bankruptcy matter that
requires continuing court supervision; and 3) the
equitable powers of the bankruptcy court to enforce its
own injunctions are central to the structure of the Code.”
Id. at 390.
Because it determined that an inherent conflict
existed between the Bankruptcy Code and the FAA, the
Anderson court held that the bankruptcy court had
appropriately exercised its “discretion” to refuse to
compel arbitration. Id. at 388, 392.
D. This Court Decides Epic Systems v. Lewis.
Shortly after Anderson, this Court decided Epic
Systems Corp. v. Lewis. There, this Court reiterated
that “[a] party seeking to suggest that two statutes
cannot be harmonized, and that one displaces the other,
bears the heavy burden of showing ‘a clearly expressed
congressional intention’ that such a result should
follow.” 138 S. Ct. 1612, 1624 (2018) (quoting Vimar
Seguros y Reaseguros, S.A. v. M/V Sky Reefer, 515 U.S.
528, 533 (1995)). This Court reaffirmed that the

10
congressional intention must be “clear and manifest,” id.
(quoting Morton, 417 U.S. at 551), and that the conflict
with the FAA must be “irreconcilable,” id.
As discussed in more detail below, Epic held that the
National Labor Relations Act (“NLRA”) does not
“offer[] a conflicting command” to override the FAA. Id.
at 1619. The Court emphasized that “the absence of any
specific statutory discussion of arbitration or class
actions is an important and telling clue that Congress
has not displaced the Arbitration Act.” Id. at 1627. The
Court noted that it had “rejected every such effort” to
“conjure conflicts between the Arbitration Act and other
federal statutes.” Id.
E. The District Court Vacates Its Order
Compelling Arbitration In Light Of Anderson,
And The Second Circuit Affirms.
Meanwhile, following Anderson, respondent moved
for reconsideration in the district court. See Pet. App.
19a-23a. Respondent contended that because Anderson
definitively determined that there was an inherent
conflict as to purpose, the text and legislative history of
the Code and the FAA were irrelevant to arbitrability.
See Pet. App. 22a. The district court agreed and
reversed its order compelling arbitration. Pet. App. 23a.
On appeal, the Second Circuit affirmed. Although
the court acknowledged that “[i]f we were writing on a
blank slate, perhaps our conclusion would be different,”
Pet. App. 3a, it held Anderson was still good law after
Epic, and that a statute’s purpose alone could reveal an
inherent conflict with the FAA, even when the text was
“silent on the issue of arbitration” and thus merely

11
“ambiguous.” Pet. App. 8a. Applying this principle, the
court held that the importance of the Code’s fresh start
provisions impliedly conflicted with the FAA’s command
of arbitrability. Pet. App. 6a-8a. The Second Circuit
acknowledged that Congress had not granted exclusive
jurisdiction to federal courts to hear such disputes, and
that state courts routinely resolved claims about what
constituted an unlawful attempt to collect a debt under
§ 524(a)(2). Pet. App. 9a. But it concluded that the
availability of state court relief did not support
arbitrability because respondent had styled her claim as
one for contempt. Pet. App. 9a-10a.
On remand, the bankruptcy court reaffirmed that it
would leave its stay in place pending review by this
Court. Tr. of Proceedings at 6-7, 27, Belton v. GE
Capital Consumer Lending, Adv. No. 14-08223 (Bankr.
S.D.N.Y. Sept. 17, 2020), ECF No. 125. The bankruptcy
court noted it had always thought it a “close” question as
to whether the parties’ dispute was arbitrable. Id. at 25.
REASONS FOR GRANTING THE PETITION
I.

The Decision Below Conflicts With This
Court’s Clear Precedent Regarding The Scope
Of The FAA.
A. Epic Requires That Congressional Intent To
Displace Arbitration Must Be “Clear And
Manifest.”

The FAA directs courts to “treat arbitration
agreements as “valid, irrevocable, and enforceable.”
Epic Sys. Corp., 138 S. Ct. at 1621 (quoting 9 U.S.C. § 2).
Just over two years ago, Epic reiterated that this Court
will not construe another federal statute to repeal the

12
FAA’s express command of arbitrability absent “clear
and manifest” evidence Congress intended that result.
Id. at 1624 (quoting Morton, 417 U.S. at 551). The Court
explained that “we come armed with the ‘stron[g]
presum[ption]’ that repeals by implication are
‘disfavored’ and that ‘Congress will specifically address’
preexisting law when it wishes to suspend its normal
operations in a later statute.” Id. (quoting United States
v. Fausto, 484 U.S. 439, 452, 453 (1988)). That
presumption reflects “[r]espect for Congress as drafter”
and guards against courts “pick[ing] and choos[ing]
between statutes.” Id. Summing up the standard, the
Court held that a litigant who contends that another
enactment cannot be harmonized with the FAA faces a
“heavy burden” to establish an “irreconcilable conflict[]”
between the laws. Id.
The Court then applied that standard and held that
the plaintiffs did not carry their “heavy burden” to
identify an “irreconcilable conflict[]” between the FAA
and the NLRA. See id. at 1624, 1632. The plaintiffs’
claim failed in large part because the NLRA said nothing
about arbitration at all. As the Court explained, the
NLRA’s text “does not express approval or disapproval
of arbitration.” Id. at 1624. Given that the statute “does
not even hint at a wish to displace the Arbitration Act”
it does not “accomplish that much clearly and manifestly,
as our precedents demand.” Id.
The Court contrasted the NLRA’s silence on
arbitration with language in statutes where Congress
had overridden the FAA. For example, 7 U.S.C. §
26(n)(2) provides that “[n]o predispute arbitration
agreement shall be valid or enforceable” under certain

13
circumstances and 15 U.S.C. § 1226(a)(2) provides that
“[n]otwithstanding any other provision of law, . . .
arbitration may be used to settle [motor vehicle contract
disputes] only if” certain conditions are met. See Epic
Sys. Corp., 138 S. Ct. at 1626. These express provisions
show that Congress “knows how to override the
Arbitration Act when it wishes” and that “[t]he fact that
we have nothing like that here is further evidence” that
Congress did not intend to override the FAA via the
NLRA. Id.
Epic also discussed at length the role that statutory
purpose plays (and does not play) in determining
whether there is an irreconcilable conflict between
federal statutes. The majority did not gainsay that the
NLRA serves important policy goals: “safeguard[ing],
first and foremost, workers’ rights to join unions and to
engage in collective bargaining.” Id. at 1630 (quoting id.
at 1636 (Ginsburg, J., dissenting)). And it recognized
that the statute giving rise to the plaintiff’s actual
claims, the Fair Labor Standards Act, allows for judicial
resolution of disputes. Id. at 1626. But the Court
rejected the inference that by making a judicial forum
available to vindicate a federal right, Congress silently
intended to displace the FAA. Instead, the key point in
the analysis was that nothing in the statute showed a
“clear and manifest congressional command” to prohibit
arbitration as a means of serving those polices. Id. at
1624. See id. at 1627 (“[E]ven a statute’s express
provision for collective legal actions does not necessarily
mean that it precludes ‘individual attempts at
conciliation’ through arbitration.” (quoting Gilmer v.
Interstate/Johnson Lane Corp., 500 U.S. 20, 32 (1991))).

14
B. Epic Stands Atop A Mountain Of Precedent
Affirming That The Importance Of A Policy
Goal Does Not Displace The Federal
Arbitration Act.
Epic was not a bolt from the blue. For decades, the
Court has held that absent a “clear” statement from
Congress, the Court will not find that another federal
statute curtails the scope of the FAA. Id. at 1624; see,
e.g., Am. Exp. Co. v. Italian Colors Rest., 570 U.S. 228
(2013); CompuCredit Corp. v. Greenwood, 565 U.S. 95
(2012); Gilmer v. Interstate/Johnson Lane Corp., 500
U.S. 20 (1991); Shearson/Am. Exp., Inc. v. McMahon,
482 U.S. 220 (1987); Mitsubishi Motors Corp. v. Soler
Chrysler-Plymouth, Inc., 473 U.S. 614 (1985). Indeed,
as Epic explained, this Court has “rejected every . . .
effort” to find a conflict between the FAA and another
federal statute. Epic Sys. Corp., 138 S. Ct. at 1627
(emphasis in original).
The Court’s cases have been particularly clear: a
federal statute does not displace the FAA simply
because that statute serves important values. Time and
again, this Court has rejected those arguments, finding
them insufficient to show an irreconcilable conflict that
overcomes the strong federal policy favoring
enforcement of arbitration agreements.
For example, in Mitsubishi Motors v. Soler ChryslerPlymouth, Inc., the Court rejected the argument that
the “fundamental importance” of the antitrust laws
displaced the FAA, because “so long as the prospective
litigant effectively may vindicate [his or her] statutory
cause of action in the arbitral forum, the [antitrust]
statute will continue to serve both its remedial and

15
deterrent function.” 473 U.S. at 634, 637. In Gilmer v.
Interstate/Johnson Lane Corp., the Court found no
“inherent inconsistency between” arbitration and the
“important social policies” underpinning the Age
Discrimination in Employment Act. 500 U.S. at 27-28.
And in Green Tree Financial Corp.–Alabama v.
Randolph, the Court again emphasized that “even
claims arising under a statute designed to further
important social policies may be arbitrated because ‘so
long as the prospective litigant effectively may vindicate
[his or her] statutory cause of action in the arbitral
forum,’ the statute serves its functions.” 531 U.S. 79, 90
(2000) (quoting Gilmer, 500 U.S. at 28). In that case,
there was no evidence that the plaintiff asserting claims
under the Truth in Lending Act and the Equal Credit
Opportunity Act would be “unable to vindicate her
statutory rights in arbitration.” Id. at 83, 90-91.
Even in McMahon, on which the court below relied,
this Court explained that, when “text and legislative
history fail to reveal any intent to override the
provisions of the [FAA],” any conflict between the
relevant statute and the FAA must be “irreconcilable.”
482 U.S. at 239. There, the Court held that the plaintiffs’
civil RICO claims—as well as securities claims—were
arbitrable, notwithstanding the important “deterrent”
and “remedial” interests of the statutes because there
was no reason to think plaintiffs would be unable to
“vindicate [their] statutory cause of action in the arbitral
forum.” Id. at 240 (quoting Mitsubishi Motors, 473 U.S.
at 637), 242; see id. at 238.
In short, the Court’s arbitration cases have taught a
consistent lesson: the importance of a federal right does

16
not generate the “irreconcilable conflict” necessary to
displace the FAA’s command of arbitration. On the
contrary, this Court has consistently held that
arbitration is capable of vindicating those important
federal rights.
C. The Decision Below Spurns The Court’s
Precedent Requiring A “Clear And Manifest
Congressional Command.”
The decision below holds that § 524(a)(2) of the
Bankruptcy Code impliedly displaces the FAA’s
command that arbitration agreements “shall be
enforced,” see 9 U.S.C. § 2, and instead gives a court
“discretion” to decline to enforce those agreements, see
Anderson, 884 F.3d at 387-88. Pet. App. 7a-10a. That
decision cannot be squared with this Court’s precedents.
The Second Circuit began in the right place by
looking to the text of § 524(a), but it went badly astray
from there. Section 524(a)(2) provides that a discharge
under the Code “operates as an injunction against . . . an
act, to collect, recover or offset any such debt as a
personal liability of the debtor, whether or not discharge
of such debt is waived.” 11 U.S.C. § 524(a)(2). This
prohibition contains no enforcement mechanism, but
respondent sought relief through § 105 of the Code,
which authorizes the bankruptcy court to “issue any
order, process, or judgment that is necessary or
appropriate to carry out the provisions of this title.” Id.
§ 105(a).
The court acknowledged that “the Code is silent on
the issue of arbitration” in the context of a dispute about
whether there has been an attempt to collect a debt

17
within the meaning of § 524(a)(2), but it took that silence
to establish “ambigu[ity]” as to Congress’s intentions.
Pet. App. 8a-9a. Yet Epic teaches precisely the opposite
lesson: the Code’s silence regarding arbitration is not a
neutral factor that generates statutory ambiguity but
“telling” evidence that Congress did not intend to
displace the FAA. See Epic Sys. Corp., 138 S. Ct. at
1626-27. Where a federal enactment “does not even hint
at a wish to displace the Arbitration Act” it surely does
not “accomplish that much clearly and manifestly, as our
precedents demand.” Id. at 1624.
The panel here suggested that it would work a
radical change in this Court’s precedents to require
textual support to justify a claim of inherent conflict
with the FAA, see Pet. App. 7a-8a, but the opposite is
true. An atextual inherent conflict is a chimera in the
U.S. Reports. The Court has never found one. And Epic
made clear that only “clear and manifest” evidence of
intent would suffice to demonstrate that conflict, and
that any such conflict would have to be “irreconcilable”
to warrant a conclusion that Congress intended to repeal
the FAA in a later statute. Such unmistakable evidence
of an irreconcilable conflict is lacking where it has no
support in the text of the statute.
With no textual support for an irreconcilable conflict,
the Second Circuit should have ended its analysis there.
But, having perceived an open door in the Code’s text, it
proceeded to analyze the purpose of § 524(a)(2) and
found that the provision was in “inherent conflict” with
the FAA’s command of arbitration. See Pet. App. 7a10a.

18
Here, the court made the same error that this Court
has been calling out for decades in other areas of federal
law: conflating the importance of the federal right with
an irreconcilable conflict with the FAA. The Second
Circuit cited three features of the Code that it
determined created a conflict with the FAA:
(1) the discharge injunction is “integral” to the
bankruptcy process; (2) “the claim [concerns] an
ongoing bankruptcy matter that requires
continuing court supervision;” and (3) “the
equitable powers of the bankruptcy court to
enforce its own injunctions are central to the
structure of the Code.”
Pet. App. 6a (quoting Anderson, 884 F.3d at 390).
No aspect of this purposive analysis, whether singly
or in combination, remotely demonstrates an
irreconcilable conflict with the FAA. In the first place,
as described above, the fact that a statute is important
or integral is not a basis upon which to avoid arbitration.
No one disputes that the fresh start is integral to the
Code or that 524(a)(2)’s injunction against acts to collect
a debt should be respected. But the Court’s cases
require that courts not ask merely whether a fresh start
is important, but whether the relevant federal statute
and the FAA are “irreconcilable” Epic Sys. Corp., 138 S.
Ct. at 1624. There is no basis to conclude that the fresh
start policy is somehow more in conflict with arbitration
than the federal policies of ensuring workers’ rights to
collective action and to protection under wage and hour
laws, see id. at 1630; preventing age discrimination, see
Gilmer, 500 U.S. at 27-28; or enforcing the antitrust,

19
securities, or racketeering laws, see Mitsubishi Motors,
473 U.S. at 634, 636-37; McMahon, 482 U.S. at 222, 23132, 240.
Likewise, the court doubly misses the mark to assert
that the bankruptcy court’s “ongoing” power to enforce
its “own injunctions” is in irreconcilable conflict with the
FAA. For one thing, it is routine for parties to arbitrate
the meaning of a court order. See, e.g., AKZO Nobel
Coatings Inc. v. Color & Equip. LLC, No. 2:11-CV00082, 2012 WL 12960780, at *4 (N.D. Ala. July 16, 2012)
(“An arbitrator should have no problem interpreting the
court’s Preliminary Injunction Order.”). For another,
the underlying dispute here is not about the
interpretation of the language of the bankruptcy court’s
order, but about the language of a statutory prohibition
on the collection of debts. A discharge order puts that
language at issue by operation of law. 11 U.S.C. §
524(a)(2) (stating that “[a] discharge in a case under this
title (2) operates as an injunction against [an explicit list
of items]”). The parties’ dispute is thus not about what
the bankruptcy judge meant, but what Congress meant.
Arbitration is a perfectly suitable means of determining
the scope of federal rights between two parties here as
it is with respect to all other federal rights.
Nor is it any answer to advert to the bankruptcy
court’s “equitable powers” because those equitable
powers end where the express text of a statute begins.
See Law v. Siegel, 571 U.S. 415, 421 (2014) (“[I]n
exercising [its] statutory and inherent powers, a
bankruptcy court may not contravene specific statutory
provisions.”).
The FAA’s express command of

20
arbitrability cannot be overcome by an exercise of
implied equitable power.
Finally, further confirmation that the scope of §
524(a)(2) is not within the special purview of bankruptcy
courts comes from Congress’s decision to give state
courts concurrent jurisdiction over such disputes. 28
U.S.C. §1334(b); see Taggart v. Lorenzen, 139 S. Ct. 1795,
1803 (2019) (state courts “have concurrent jurisdiction”
over questions of dischargeability).
State courts
routinely resolve disputes arising out of discharge
orders. See, e.g., Flanders v. Lawrence (In re Flanders),
657 F. App’x 808, 821 (10th Cir. 2016) (state court’s
interpretation of bankruptcy discharge order was
entitled to preclusive effect). Indeed, this Court has
observed that “in most instances” disputes over the
dischargeability of a debt are resolved in state court not
bankruptcy court. Taggart, 139 S. Ct. at 1803 (quoting
advisory committee’s 2010 note on subd. (c)(1) of Fed. R.
Civ. P. 8). If state courts are competent to resolve these
disputes there is no reason—let alone a clear and
manifest one—to conclude that arbitration is inherently
in conflict with the Code.
II.

This Court’s Review Is Needed To Resolve
Persistent Confusion In The Lower Courts
Regarding The Bankruptcy Code’s Ability To
Displace The Federal Arbitration Act.

This case is the latest illustration of the lower courts’
confusion about how the Bankruptcy Code and the FAA
interact. Different circuits employ different tests to
determine whether the Code repeals the FAA. That
divergence is worthy of the Court’s review by itself. As
one scholarly article summed up the issue,

21
“[i]nterpretation [of McMahon] has not been uniform [in
the bankruptcy context] . . . , and the circuit courts
interpreting the Supreme Court holding have
emphasized the importance of different considerations
and have reached different outcomes.” Alexis Leventhal
& Roni A. Elias, Competing Efficiencies: The Problem
of Whether and When to Refer Disputes to Arbitration
in Bankruptcy Cases, 24 Am. Bankr. Inst. L. Rev. 133,
144 (2016); see also Alan N. Resnick, The Enforceability
of Arbitration Clauses in Bankruptcy, 15 Am. Bankr.
Inst. L. Rev. 183, 185 (2007) (concluding that the
“numerous approaches and analyses adopted by the
various federal courts of appeals” have led to substantial
“uncertainty and confusion . . . with respect to the
interplay between arbitration and bankruptcy and
whether an arbitration clause should be enforced in a
particular proceeding in a bankruptcy case”).
Equally problematic is that the mass of different
tests employed by the lower courts bear little
resemblance to the approach this Court has set out in its
arbitration cases. Rather than assess whether Congress
has clearly and manifestly indicated its intent to repeal
such that there is an irreconcilable conflict between the
FAA and the Code, the lower courts are instead relying
on purpose-based assessments of the particular Code
provision at issue. There should not be one test for
assessing whether the Code and the FAA can be
harmonized, and another for the rest of federal law.
To begin, the courts of appeals are openly using
different tests in determining when the Code repeals the
FAA. One group of circuits, including the Second
Circuit, look to whether the claim at issue is core or non-

22
core. The Second Circuit instructs that a non-core claim
“generally” may be arbitrated under the FAA, while a
core claim may not. See Anderson, 884 F.3d at 387
(quoting Crysen/Montenay Energy Co. v. Shell Oil Co.
(In re Crysen/Montenay Energy Co.), 226 F.3d 160, 166
(2d Cir. 2000)). The Fourth, Ninth, and Eleventh
Circuits similarly distinguish between core and non-core
proceedings. Phillips v. Congelton, L.L.C. (In re White
Mountain Mining Co.), 403 F.3d 164, 169 (4th Cir. 2005)
(examining whether “Congress intended to limit or
preclude the waiver of the bankruptcy forum for core
proceedings”); Continental Ins. Co. v. Thorpe
Insulation Co. (In re Thorpe Insulation Co.), 671 F.3d
1011, 1021 (9th Cir. 2012) (noting that a bankruptcy court
has “discretion” to deny arbitration in core proceedings,
but generally not in non-core proceedings); Whiting–
Turner Contracting Co. v. Elec. Mach. Enters., Inc., (In
re Elec. Mach. Enters., Inc.), 479 F.3d 791, 796-97 (11th
Cir. 2007) (same).
The Fifth Circuit takes a different—albeit related—
tack, asking whether the proceeding “adjudicate[s]
statutory rights conferred by the Bankruptcy Code and
not the debtor’s prepetition legal or equitable rights.”
Matter of Henry, 944 F.3d 587, 590-91 (5th Cir. 2019)
(finding, after Epic, that a claim for violating the
discharge injunction was not arbitrable because of an
inherent conflict with the FAA).
If this first
requirement is met, the court then asks whether
“requiring arbitration would conflict with the purposes
of the Bankruptcy Code.” Id. at 591.
The Third Circuit rejects the core/non-core
distinction. See In re Mintze, 434 F.3d 222, 229 (3d Cir.

23
2006) (“The core/non-core distinction does not, however,
affect whether a bankruptcy court has the discretion to
deny enforcement of an arbitration agreement.”). That
court’s articulated rule comes the closest to the analysis
mandated by Epic, setting the task to “determine
whether [a party] has established congressional intent
to preclude waiver of judicial remedies for the statutory
rights at issue.” Id. at 231.
The result is an inconsistent patchwork of
bankruptcy proceedings which apparently pose a
conflict with the FAA. Debtors in the Second Circuit
can be required to arbitrate alleged willful violations of
the Bankruptcy Code’s automatic stay, see MBNA Am.
Bank, N.A. v. Hill, 436 F.3d 104, 110-11 (2d Cir. 2006),
but not alleged violations of the statutory discharge
injunction. Pet. App. 3a. Litigants in the Third Circuit
can arbitrate complaints to enforce rescission of loan
agreements, see In re Mintze, 434 F.3d at 226, while
those in the Ninth Circuit lose the benefit of their
bargain for pre-petition claims for breach of contract,
fraud, and breach of fiduciary duty. See Ackerman v.
Eber (In re Eber), 687 F.3d 1123, 1125-26 (9th Cir. 2012).
Some claims that would otherwise be arbitrable may not
be sent to arbitration if the proceeding also concerns
bankruptcy causes of action that “predominate.” Cf.
Gandy v. Gandy (In re Gandy), 299 F.3d 489, 497-99 (5th
Cir. 2002) (Even though some claims involved “prepetition legal or equitable rights,” the goal of avoiding
bifurcated proceedings “could present the type of
conflict with the purposes and provisions of the
Bankruptcy Code that may override the FAA’s

24
statutory directive of enforcement of arbitration
agreements.” (emphasis added)).
Among these differing approaches, however, one
common thread emerges: contrary to this Court’s
teachings, the lower courts are determining whether the
Code repeals the FAA by attempting to ascertain the
purpose of the Code provision, divorced from any
assessment of whether the text of the Code actually
irreconcilably conflicts with the FAA. That of course is
what the Second Circuit did here. See Pet. App. 6a-9a.
But the Second Circuit is hardly alone. E.g., Matter of
Henry, 944 F.3d at 591 (“[B]ankruptcy courts may
decline enforcement of arbitration agreements only if
requiring arbitration would conflict with the purposes of
the Bankruptcy Code.”); In re White Mountain Mining
Co., 403 F.3d at 169 (“We need not decide today whether
the statutory text itself demonstrates congressional
intent to override arbitration for core claims because
this case may be decided under McMahon’s third line of
analysis[.] . . . We thus turn to whether there is an
inherent conflict between arbitration and the underlying
purposes of the bankruptcy laws.”); In re Thorpe
Insulation Co., 671 F.3d at 1021 (“[A] bankruptcy court
has discretion to decline to enforce an otherwise
applicable arbitration provision only if arbitration would
conflict with the underlying purposes of the Bankruptcy
Code.”); In re Elec. Mach. Enters., Inc., 479 F.3d at 796
(“[W]e find no evidence within the text or in the
legislative history that Congress intended to create an
exception to the FAA in the Bankruptcy Code.
Therefore, we look to the third factor of the McMahon
test and examine whether an inherent conflict exists

25
between arbitration and the underlying purposes of the
Bankruptcy Code.” (internal citation omitted)).
Even the Third Circuit overemphasizes the purpose
of the Bankruptcy Code. That court has acknowledged
that there was “no evidence of [congressional] intent [to
displace the FAA] in either the statutory text or the
legislative history of the Bankruptcy Code.” In re
Mintze, 434 F.3d at 231. Yet, when evaluating whether
there was an inherent conflict between the FAA and the
Bankruptcy Code for a claim “to enforce a pre-petition
rescission of [a] loan agreement,” id. at 226, that court
placed no weight on that important textual fact. Id. at
231. The court instead determined that there was no
conflict with “the underlying purposes of the
Bankruptcy Code” because there was “no bankruptcy
issue to be decided by the Bankruptcy Court.” Id. at
231-32.
Thus, like the Second Circuit, many other courts of
appeals have constructed ways to inflate the concept of
an “inherent conflict” to encompass a variety of claims
that intersect with the purposes of the Bankruptcy
Code. But Epic teaches that for a conflict to be inherent,
the statutes must be “irreconcilable.” See Epic Sys.
Corp., 138 S. Ct. at 1624.
There should not be varying sets of amorphous rules
governing the arbitrability of bankruptcy claims, and
another unified set of rules governing the arbitrability
of all other federal claims. Only this Court can ensure
that bankruptcy law is no longer an exception to this
Court’s arbitration jurisprudence.

26
III.

This Court Should Resolve The Question
Presented Now And In This Case.

After the Second Circuit decided Anderson, the
debtor, represented by the same counsel as respondent
here, urged this Court not to grant certiorari on the
ground that the textual arguments in that case had been
waived, and that the Second Circuit had not yet had an
opportunity to address this Court’s decision in Epic. See
Brief In Opposition To Petition For Writ Of Certiorari
at 25-26, 29, Credit One Bank, N.A., v. Anderson, 139 S.
Ct. 144 (Mem.) (2018) (No. 17-1652).
Those issues are now fully litigated and are squarely
presented for review.
The Second Circuit has
conclusively held that its purpose-based approach is
good law both before and after Epic. See Pet. App. 7a9a. Only this Court can resolve that issue and it should
grant certiorari to make clear to the lower courts that
the Bankruptcy Code is not exempt from Congress’s—
and this Court’s—requirement that arbitration
agreements should be enforced unless Congress clearly
and manifestly commands otherwise.
CONCLUSION
The petition for a writ of certiorari should be
granted.

27
October 9, 2020
JOSEPH L. NOGA
JENNER & BLOCK LLP
919 Third Avenue
New York, NY 10022

Respectfully submitted,
MATTHEW S. HELLMAN
COUNSEL OF RECORD
JENNER & BLOCK LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001
(202) 639-6000
mhellman@jenner.com
LEIGH J. JAHNIG
JENNER & BLOCK LLP
353 North Clark Street
Chicago, IL 60654

1a

August Term 2019
Argued: April 21, 2020
Decided: June 16, 2020
Nos. 19-648 (L), 19-655 (Con.)
IN RE: NYREE BELTON, KIMBERLY BRUCE,
Debtors.
NYREE BELTON,
Plaintiff-Appellee,
KIMBERLY BRUCE,
Debtor-Appellee,
v.
GE CAPITAL RETAIL BANK,
Defendant-Appellant,
CITIGROUP INC., CITIBANK, N.A.,
Appellants.
Appeal from the United States District Court
for the Southern District of New York
Nos. 15-cv-1934, 15-cv-3311,
Vincent L. Briccetti, Judge.

2a
Before:

WINTER, WESLEY,
Judges.

AND

SULLIVAN, Circuit

Appellants GE Capital Retail Bank, Citigroup Inc.,
and Citibank, N.A. appeal from an order of the district
court (Briccetti, J.) denying Appellants’ motions to
compel arbitration. Specifically, Appellants argue that
Appellees – two debtors who previously held credit card
accounts managed by Appellants – were obliged to
arbitrate a dispute concerning whether Appellants
violated the bankruptcy court’s discharge orders when
they failed to correct the status of Appellees’ credit card
debt on their credit reports. Both the bankruptcy court
and the district court determined that the arbitration
clauses in the credit card agreements were
unenforceable. On appeal, we conclude that though the
text and history of the Bankruptcy Code are ambiguous
as to whether Congress intended to displace the Federal
Arbitration Act in this context, our precedent is clear
that the two statutes are in inherent conflict on this
issue. We therefore affirm the district court’s order.
AFFIRMED AND REMANDED.
GEORGE F. CARPINELLO (Adam R. Shaw,
Anne M. Nardacci, on the brief), Boies
Schiller Flexner LLP, Albany, NY;
Charles Juntikka, Charles Juntikka &
Associates LLP, New York, NY, for
Appellees.
JOSEPH L. NOGA, Jenner & Block LLP,
New York, NY; Matthew S. Hellman,
Jenner & Block LLP, Washington, DC, for
Appellant GE Capital Retail Bank.

3a
BENJAMIN R. NAGIN (Eamon P. Joyce,
Jonathan W. Muenz, Qais Ghafary, on the
brief), Sidley Austin LLP, New York, NY,
for Appellants Citigroup Inc. and
Citibank, N.A.
RICHARD J. SULLIVAN, Circuit Judge:
Is the alleged violation of a bankruptcy court
discharge order an arbitrable dispute? Though we
answered this very question only two years ago, we are
called upon to reconsider the issue here. If we were
writing on a blank slate, perhaps our conclusion would
be different. But as our Court’s precedent is clear, and
as that precedent is not incompatible with intervening
caselaw or the text and history of the Bankruptcy Code,
we are bound to answer the question in the negative.
Accordingly, we AFFIRM the order of the district court
(Briccetti, J.) affirming the decision of the bankruptcy
court (Drain, Bankr. J.) denying Appellants’ motions to
compel arbitration.
Appellants GE Capital Retail Bank (“GE”),
Citigroup Inc., and Citibank, N.A. (together, “Citi” and,
collectively with GE, the “Banks”) appeal the district
court’s order and judgment affirming the bankruptcy
court’s denial of the Banks’ motions to compel
arbitration. In 2007, Appellees Nyree Belton and
Kimberly Bruce (together, the “Debtors”) opened credit
card accounts with GE and Citi, respectively.
Unfortunately, the Debtors quickly fell behind on their
credit card debt and began to miss payments. The Banks
eventually “charged off” that delinquent debt – changing

4a
its accounting treatment from a receivable to a loss – and
sold it to third-party consumer debt purchasers. The
Banks also reported the change in the debt’s status to
the three major credit reporting agencies. In turn, those
agencies updated the Debtors’ credit reports to reflect
the debt as “charged off,” indicating that the debt was
severely delinquent but still outstanding.
Within the next few years, both Debtors filed
voluntary petitions for relief under Chapter 7 of the
Bankruptcy Code (the “Code”). At the completion of the
liquidation processes, the bankruptcy court entered
orders discharging the Debtors’ debts. Under 11 U.S.C.
§ 524(a)(2), those orders operate as “injunction[s]”
against any future collection attempts.
Nevertheless, after the Debtors emerged from
bankruptcy, their credit reports continued to reflect
their credit card debt as “charged off” without any
mention of the bankruptcy discharge. The Debtors
assert that this was not a simple mistake, but rather an
attempt by the Banks to coerce the Debtors into
repaying the debt notwithstanding the bankruptcy
court’s orders. As a result, the Debtors, purporting to
represent a nationwide class of similarly situated
debtors, reopened their bankruptcy cases and initiated
adversary proceedings against the Banks, alleging that
the Banks’ refusal to update their credit reports violated
the bankruptcy court’s orders and the associated
injunctions provided by section 524(a)(2). The Debtors
seek a contempt citation and damages.
In response, the Banks moved to enforce mandatory
arbitration clauses in the Debtors’ credit card account
agreements. Ultimately, both the bankruptcy court and

5a
the district court rejected the Banks’ motions, finding
that the dispute was not arbitrable due to an inherent
conflict between the Code and the Federal Arbitration
Act (the “Arbitration Act”). The Banks appealed.
We have jurisdiction to decide this case under 28
U.S.C. § 158(d) and 9 U.S.C. § 16(a)(1). As for the
applicable standard of review, “[t]he rulings of a district
court acting as an appellate court in a bankruptcy case
are subject to plenary review.” Stoltz v. Brattleboro
Hous. Auth. (In re Stoltz), 315 F.3d 80, 87 (2d Cir. 2002).
In other words, “[w]hen reviewing a bankruptcy court
decision that was subsequently appealed to a district
court, we review the bankruptcy court’s decision
independent of the district court’s review.” Statek Corp.
v. Dev. Specialists, Inc. (In re Coudert Bros. LLP), 673
F.3d 180, 186 (2d Cir. 2012). In so doing, we review the
bankruptcy court’s legal conclusions de novo. ANZ Sec.,
Inc. v. Giddens (In re Lehman Bros. Inc.), 808 F.3d 942,
946 (2d Cir. 2015).
We are called upon to decide a narrow issue: whether
a dispute concerning the violation of a bankruptcy
discharge order is arbitrable.1
The Arbitration Act requires courts to strictly
enforce arbitration agreements. But like any statutory
directive, that mandate may be overridden by contrary
congressional intent. Shearson/American Express, Inc.
1

As discussed below, our decision does not address whether such a
dispute is amenable to class adjudication.

6a
v. McMahon, 482 U.S. 220, 226 (1987). Such an intent
may be deduced from “the statute’s text or legislative
history, or from an inherent conflict between arbitration
and the statute’s underlying purposes.” Id. at 227
(internal quotation marks, citation, and alteration
omitted).
Employing the McMahon test here requires us to
exhaustively parse the Code in search of such
congressional intent. But we are not writing on a blank
slate. In 2018, this Court considered a nearly identical
dispute in Anderson v. Credit One Bank, N.A. (In re
Anderson), 884 F.3d 382 (2d Cir.), cert. denied, 139 S. Ct.
144 (2018). Like this case, Anderson concerned a credit
card account holder seeking to bring an adversary
proceeding against a bank for violating a bankruptcy
discharge order. And like the account agreements here,
the agreement in Anderson contained a mandatory
arbitration provision.
The Anderson Court nevertheless refused to enforce
the parties’ arbitration agreement, finding that
Congress did not intend for disputes over the violation
of a discharge order to be arbitrable. The Court reached
that conclusion by determining that arbitration was in
“inherent conflict” with enforcement of a discharge
order because: (1) the discharge injunction is “integral”
to the bankruptcy process; (2) “the claim [concerns] an
ongoing bankruptcy matter that requires continuing
court supervision;” and (3) “the equitable powers of the
bankruptcy court to enforce its own injunctions are
central to the structure of the Code.” Id. at 390.
Importantly, the Court arrived at this holding without
considering the Code’s text or legislative history, which

7a
the parties had not argued before the district court. Id.
at 388–89.
Given the overwhelming similarities between this
case and Anderson, our hands seem to be bound by that
panel’s decision. See Doscher v. Sea Port Grp. Sec., LLC,
832 F.3d 372, 378 (2d Cir. 2016). But the Banks tell us
otherwise.
According to them, the Supreme Court’s recent
decision in Epic Systems Corp. v. Lewis, 138 S. Ct. 1612
(2018), undermined Anderson’s interpretation of
McMahon and its progeny. Specifically, they argue that
Epic Systems rejected the notion that an inherent
conflict between statutory purpose and arbitration is
independently sufficient to displace the Arbitration Act.
The Banks instead see Epic Systems as requiring a textfirst approach that cannot be satisfied by reference only
to statutory purpose.
We disagree. To be sure, Epic Systems describes an
exacting gauntlet through which a party must run to
demonstrate congressional intent to displace the
Arbitration Act. See id. at 1624 (“A party seeking to
suggest that two statutes cannot be harmonized, and
that one displaces the other, bears the heavy burden of
showing a clearly expressed congressional intention that
such a result should follow.” (internal quotation marks
omitted)). But despite the difference in tone, “the test
[Epic Systems] employs is substantially the same as
McMahon’s.” Henry v. Educ. Fin. Serv. (In re Henry),
944 F.3d 587, 592 (5th Cir. 2019). More to the point, Epic
Systems never stated an intention to overrule McMahon
or render any prong of its tripartite test a dead letter.
See Bosse v. Oklahoma, 137 S. Ct. 1, 2 (2016); Shalala v.

8a
Ill. Council on Long Term Care Inc., 529 U.S. 1, 18
(2000) (acknowledging that the Court “does not normally
overturn, or . . . dramatically limit, earlier authority sub
silentio”).
What, then, is the impact of Epic Systems on
McMahon (and thus Anderson)? Like the Fifth Circuit,
we see Epic Systems as clarifying that where two of
McMahon’s factors clash, a court should resolve the
dispute in favor of the statutory text and any contextual
clues derived therefrom. See Henry, 944 F.3d at 592.
But that gloss on McMahon does not undermine
Anderson’s conclusion – that an “inherent conflict” is
sufficient to displace the Arbitration Act where the
statutory text is ambiguous.
Of course, Anderson’s survival does not end our
inquiry. Anderson, by virtue of the posture in which it
arrived before the panel, was narrowly circumscribed.
Specifically, the parties had waived any arguments
concerning the Code’s text or legislative history, and the
Court declined to consider them. Anderson, 884 F.3d at
388–89. That is not the case here. We must therefore
reexamine Anderson’s conclusion in light of the Code’s
text and history, and Epic Systems’s reminder that a
statute’s purpose cannot circumvent its text.
Here, no one disputes that the Code is silent on the
issue of arbitration in this context. The contested
question is what to make of that fact. Epic Systems
clearly viewed statutory silence as probative evidence
that Congress did not intend to displace the Arbitration
Act. See 138 S. Ct. at 1626 (noting that “Congress has . . .
shown that it knows how to override the Arbitration Act
when it wishes”). But it did not treat silence as outcome

9a
determinative – since that would have rendered much of
Epic Systems’s analysis surplusage. Accordingly, we do
not think that the Code’s failure to expressly disclaim
arbitrability undermines Anderson’s conclusion.
The Banks do, however, have one textual argument
with some teeth: state courts have concurrent
jurisdiction to enforce the discharge injunction as an
affirmative defense in collections suits. See Taggart v.
Lorenzen, 139 S. Ct. 1795, 1803 (2019). The Banks
sensibly posit that if state courts are competent to
interpret the scope of a discharge order, then so too are
arbitrators. See Hays & Co. v. Merrill Lynch, Pierce,
Fenner & Smith, Inc., 885 F.2d 1149, 1157 n.11 (3d Cir.
1989) (“Where Congress has specifically indicated
subjugation of arbitration to the dictates of the
bankruptcy laws in one situation, but not in another, we
must presume that Congress neither intended to
subjugate arbitration in the second instance, nor saw the
two laws as conflicting in this respect.”).
But what the Banks overlook is that the Debtors are
not invoking the discharge injunction as a defense to
collection. Rather, they are proceeding affirmatively to
recover damages for an alleged violation of a court order
and injunction. Because our Court has never identified a
private right of action under section 524, the Debtors
have pursued this remedy through a contempt
proceeding. See Garfield v. Ocwen Loan Servicing, LLC,
811 F.3d 86, 91–92, 92 n.7 (2d Cir. 2016); Yaghobi v.
Robinson, 145 F. App’x 697, 699 (2d Cir. 2005). And as
this Court and numerous other circuits have concluded,
the only court that may offer a contempt remedy is the
court that issued the discharge order – the bankruptcy

10a
court. See Anderson, 884 F.3d at 391 (recognizing that
“the bankruptcy court alone has the power to enforce the
discharge injunction in Section 524” through a contempt
citation); accord Crocker v. Navient Sols., L.L.C. (In re
Crocker), 941 F.3d 206, 216–17 (5th Cir. 2019);
Alderwoods Grp., Inc. v. Garcia, 682 F.3d 958, 970 (11th
Cir. 2012); Walls v. Wells Fargo Bank, N.A., 276 F.3d 502,
509-10 (9th Cir. 2002); Cox v. Zale Del., Inc., 239 F.3d 910,
916–17 (7th Cir. 2001) (Posner, J.).
As a result, we conclude that the Code’s text offers
little guidance on Congress’s intentions in the context of
contempt proceedings like those at issue here. We
further find that the legislative history of the relevant
provisions is similarly unenlightening. We are therefore
left with Anderson’s conclusion that the Code is in
“inherent conflict” with arbitration. And under this
Circuit’s precedent, that is enough to displace the
Arbitration Act. See Anderson, 884 F.3d at 389–92; see
also MBNA Am. Bank, N.A. v. Hill, 436 F.3d 104, 108
(2d Cir. 2006) (citing Ins. Co. of N. Am. v. NGC
Settlement Tr. & Asbestos Claims Mgmt. Corp. (In re
Nat’l Gypsum Co.), 118 F.3d 1056, 1069 (5th Cir. 1997));
U.S. Lines, Inc. v. American Steamship Owners Mut.
Prot. & Indem. Assoc., Inc. (In re U.S. Lines, Inc.), 197
F.3d 631, 640–41 (2d Cir. 1999). Accordingly, we are
bound to affirm the district court’s judgment.
Having determined that Anderson controls the issue
before us, we pause only to offer a few words concerning
the scope of that conclusion. Specifically, we have not
endeavored to address whether a nationwide class action
is a permissible vehicle for adjudicating thousands of

11a
contempt proceedings, and neither our decision today nor
Anderson should be read as a tacit endorsement of such.
Indeed, permitting a bankruptcy court to adjudicate
compliance with another court’s order appears to be in
severe tension with Anderson’s reasoning.
In
particular, Anderson found that the Code displaced the
Arbitration Act, in part, because contempt proceedings
involve considerations that the issuing court is uniquely
positioned to assess. See 884 F.3d at 390–91 (“[T]he
bankruptcy court retains a unique expertise in
interpreting its own injunctions and determining when
they have been violated.”). It seems to us that this
rationale is anathema to a nationwide class action.2
More fundamentally, we question whether a
bankruptcy court would even have jurisdiction to hold a
creditor in contempt of another court’s order. Most
circuits that have considered the issue have rejected the
notion. See Crocker, 941 F.3d at 216–17 (“We adopt the
language of [Anderson] that returning to the issuing
bankruptcy court to enforce an injunction is required at
least in order to uphold ‘respect for judicial process.’”);
Alderwoods Grp., 682 F.3d at 970 (“[T]he court that
issued the injunctive order alone possesses the power to
enforce compliance with and punish contempt of that
order.”); Walls, 276 F.3d at 509–10 (same); Cox, 239 F.3d
at 916–17 (same); but see Bassette v. Avco Fin. Servs.,
2

To be sure, Anderson noted that “the class action nature” of the
case did not alter the Court’s conclusion. 884 F.3d at 391. But we
read that language to refer to the Court’s holding that the claims
were not arbitrable, not to the unpresented issue of class
certification and bankruptcy court jurisdiction.

12a
Inc., 230 F.3d 439, 446 (1st Cir. 2000) (holding that a
debtor is not required to “bring her claims in the court
that issued the original discharge order”).3 And those
cases are buttressed by the Supreme Court’s recent
decision in Taggart, which made clear that the contempt
powers provided under sections 524(a)(2) and 105(a)
“bring with them the ‘old soil’ that has long governed
how courts enforce injunctions.” 139 S. Ct. at 1802.
So, while we affirm the district court’s judgment, we
leave for another day the issue of class certification.
Accordingly, we
the order of the district
court and
for further proceedings consistent
with this opinion. The Debtors’ motion for summary
affirmance is
as moot.

3

But even in Bassette, on remand, the District of Rhode Island
found that its jurisdiction was limited to “claims that are related to
bankruptcy estates in the District of Rhode Island,” and refused to
certify a nationwide class. Bassette v. Avco Fin. Servs., Inc., 279
B.R. 442, 449 (D.R.I. 2002).

13a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
--------------------------------------------------x
In re:
:
:
NYREE BELTON,
:
Debtor.
:
--------------------------------------------------x
NYREE BELTON, Debtor and
:
Plaintiff on behalf of herself and all :
others similarly situated,
: 15 CV 1934 (VB)
Plaintiff,
:
v.
:
:
GE CAPITAL CONSUMER
:
LENDING, INC. a/k/a GE MONEY :
BANK,
:
Defendant.
:
--------------------------------------------------x
In re:
:
:
KIMBERLY BRUCE,
:
Debtor.
:
--------------------------------------------------x
KIMBERLY BRUCE, Debtor and :
Plaintiff on behalf of herself and all :
others similarly situated,
:
Plaintiff,
: 15 CV 3311 (VB)
v.
:
:

14a
CITIGROUP INC., CITIBANK,
:
N.A., and CITIBANK
:
(SOUTH DAKOTA), N.A.,
:
Defendants.
:
--------------------------------------------------x
Briccetti, J.:
Plaintiffs-appellees Nyree Belton and Kimberly
Bruce move under Fed. R. Civ. P. 59(e) and 60(b) and
Southern District of New York Local Civil Rule 6.3 for
reconsideration of this Court’s October 14, 2015,
Memorandum Decision reversing the order of the
United States Bankruptcy Court for the Southern
District of New York (Drain, J.) denying defendantsappellants GE Capital Retail Bank (“GE”), Citigroup
Inc., and Citibank, N.A., successor-in-interest to
Citibank (South Dakota), N.A.’s (together, “Citi”)
motions to compel arbitration under the Federal
Arbitration Act (“FAA”). (In re Belton, 15 Civ. 1934
(Doc. #37) (S.D.N.Y.); In re Bruce, 15 Civ. 3311 (Doc.
#30) (S.D.N.Y.)).
For the following reasons, plaintiffs-appellees’
motions are GRANTED.
The Court has subject matter jurisdiction pursuant
to 28 U.S.C. § 158(a).
The Court assumes familiarity with the underlying
factual background and summarizes only the relevant
procedural history.
On November 10, 2014, the Bankruptcy Court issued
an order denying GE’s motion to compel arbitration in

15a
In re Belton, Adv. Proc. No. 14-8223 (Bankr. S.D.N.Y.),
for reasons set forth in a “Corrected and Modified Bench
Ruling” issued the same day. See In re Belton, 2014 WL
5819586 (Bankr. S.D.N.Y. Nov. 10, 2014). Two days
later, the Bankruptcy Court denied Citi’s motion to
compel arbitration in In re Bruce, Adv. Proc. No. 148224, substantially for the reasons stated in its
Corrected and Modified Bench Ruling in In re Belton.
GE and Citi appealed the Bankruptcy Court’s decisions
to this Court.
On October 14, 2015, this Court issued a
Memorandum Decision (the “October 14 Decision”)
reversing the Bankruptcy Court’s orders in In re Belton
and In re Bruce and remanding the cases to the
Bankruptcy Court with instructions to grant the
respective motions to compel and stay the adversary
proceedings pending arbitration, and for further
proceedings consistent with the Memorandum Decision.
In re Belton, 2015 WL 6163083, at *10 (S.D.N.Y. Oct. 14,
2015) (Briccetti, J.). This Court subsequently denied
plaintiffs-appellees’ motions to certify the October 14
Decision for interlocutory appeal. In re Belton, 2016 WL
164620, at *2 (S.D.N.Y. Jan. 12, 2016).
On March 17, 2016, plaintiffs-appellees filed in the
Court of Appeals for the Second Circuit petitions for
writs of mandamus to vacate the October 14 Decision.
Separately, on May 14, 2015, the Bankruptcy Court
issued an order denying a motion to compel arbitration
in Anderson v. Credit One Bank, N.A., Adv. Proc. No.
15-8214 (Bankr. S.D.N.Y.). On June 14, 2016, the
Honorable Nelson S. Román affirmed the Bankruptcy
Court’s order. In re Anderson, 553 B.R. 221 (S.D.N.Y.

16a
2016), aff’d, 884 F.3d 382 (2d Cir. 2018), cert. denied sub
nom. Credit One Bank, N.A. v. Anderson, 139 S. Ct. 144
(Mem) (Oct. 1, 2018).
In light of Judge Román’s decision in In re Anderson,
on August 16, 2016, plaintiffs-appellees filed “renewed”
motions to certify this Court’s October 14 Decision for
interlocutory appeal. (In re Belton, 15 Civ. 1934 (Doc.
#32); In re Bruce, 15 Civ. 3311 (Doc. #25)). This Court
denied the motions.
Subsequently, on December 15, 2016, the Second
Circuit stayed plaintiffs-appellees’ petitions for writs of
mandamus in In re Bruce and In re Belton “pending a
ruling in In re Anderson.” Motion Order, In re Bruce,
No. 16-830 (Dkt. 69) (2d Cir. Dec. 15, 2016); Motion
Order, In re Belton, No. 16-833 (Dkt. 68) (2d Cir. Dec. 15,
2016).
On March 7, 2018, the Second Circuit affirmed Judge
Román’s decision in In re Anderson. The Circuit then
issued orders in In re Bruce and In re Belton denying
plaintiffs-appellees’ mandamus petitions, because in
each case, “Petitioner can seek the requested relief by
moving in the district court for reconsideration of its
order in light of this Court’s decision in In re Anderson.”
Order, In re Bruce, No. 16-830 (Dkt. 96) (2d Cir. June 26,
2018); Order, In re Belton, No. 16-833 (Dkt. 96) (2d Cir.
June 26, 2018).
Thereafter, plaintiffs-appellees filed the instant
motions for reconsideration.

17a
I. Legal Standard
Plaintiffs-appellees bring the present motions for
reconsideration under Fed. R. Civ. P. 59(e) and 60(b) and
SDNY Local Civil Rule 6.3. GE argues those rules do
not apply because the Court already remanded the
instant cases to the Bankruptcy Court, and because Fed.
R. Civ. P. 59(e) and 60(b) apply only to appealable orders.
Moreover, GE argues Fed. R. Bankr. P. 8022, which
governs motions for rehearing filed in bankruptcy
appeals before the district court, does not apply because
the Court already remanded the cases, and because Fed.
R. Bankr. P. 8022(b) requires motions for rehearing to
be filed within fourteen days of entry of judgment on
appeal.
The Court need not decide the precise legal basis for
entertaining the instant motions for reconsideration. GE
acknowledges the Court has the authority to reconsider
its own decision. Moreover, an intervening change of
controlling law is a near-universally valid basis for
bringing a motion for reconsideration. See, e.g., Kroemer
v. Tantillo, 2018 WL 6619850, at *3 (2d Cir. Dec. 17, 2018)
(summary order) (motion to alter or amend judgment
under Fed. R. Civ. P. 59(e)); Ayazi v. United Fed’n of
Teachers Local 2, 487 F. App’x 680, 681 (2d Cir. 2012)
(summary order) (Fed. R. Civ. P. 60(b)); Sargent v.
Columbia Forest Prods., Inc., 75 F.3d 86, 90 (2d Cir.
1996) (recalling mandate); Raymond v. Mid-Bronx
Haulage Corp., 2017 WL 9882601, at *1 (S.D.N.Y. June
10, 2017) (Fed. R. Civ. P. 54(b)); In re Parade Place,

18a
LLC, 508 B.R. 863, 869 (Bankr. S.D.N.Y. May 2, 2014)
(S.D.N.Y. Local Bankr. R. 9023–1(a)).1
Generally, such a motion should be granted only
when the Court has overlooked facts or precedent that
might have altered the conclusion reached in the earlier
decision. Shrader v. CSX Transp., Inc., 70 F.3d 255, 257
(2d Cir. 1995); see SDNY Local Civil Rule 6.3. The
motion must be “narrowly construed and strictly
applied in order to discourage litigants from making
repetitive arguments on issues that have been
thoroughly considered by the court.” Range Rd. Music,
Inc., v. Music Sales Corp., 90 F. Supp. 2d 390, 391–92
(S.D.N.Y. 2000). Further, the motion “may not advance
new facts, issues, or arguments not previously
presented to the court.” Randell v. United States, 64
F.3d 101, 109 (2d Cir. 1995) (citing Morse/Diesel, Inc. v.
Fid. & Deposit Co. of Md., 768 F. Supp. 115, 116
(S.D.N.Y. 1991)). This limitation ensures finality and
“prevent[s] the practice of a losing party examining a
decision and then plugging the gaps of a lost motion with
additional matters.” Carolco Pictures Inc. v. Sirota, 700
F. Supp. 169, 170 (S.D.N.Y. 1988) (internal quotation
omitted). Mere disagreement with the Court’s decision
is not a basis for reconsideration. Pro Bono Invs., Inc.

1

GE argues the Court should apply the legal standard set forth in
Sargent v. Columbia Forest Products, Inc., in which the Second
Circuit articulated a four-factor test for determining whether to
recall a prior-issued mandate. 75 F.3d at 90. For substantially the
reasons set forth below, reconsideration is warranted under the
Sargent standard as well.

19a
v. Gerry, 2008 WL 2354366, at *1 (S.D.N.Y. June 9, 2008)
(collecting cases).
II. Application
Plaintiffs-appellees argue the Court should grant
reconsideration of the October 14 Decision because the
Second Circuit’s opinion in In re Anderson, represents
an intervening change of controlling law.
The Court agrees.
The October 14 Decision and In re Anderson dealt
with the same issue. In both cases, the plaintiffs
brought claims under 11 U.S.C. § 524(a)(2) alleging
defendants violated the Bankruptcy Code’s discharge
injunction by deliberately failing to inform credit
reporting agencies about the discharge of debts in
bankruptcy to coerce former debtors into paying
discharged debts. In re Anderson, 884 F.3d at 387; In
re Belton, 2015 WL 6163083, at *2. In both cases, the
defendants moved to compel arbitration.
In re
Anderson, 884 F.3d at 387; In re Belton, 2015 WL
6163083, at *2. And in both cases, the plaintiffs
contested arbitrability by arguing there was an
inherent conflict between arbitration of the Section 524
claims and the Bankruptcy Code. In re Anderson, 884
F.3d at 389; In re Belton, 2015 WL 6163083, at *6–7.
This Court and the Second Circuit reached opposite
conclusions. In the October 14 Decision, this Court held
Congress did not intend to preclude arbitration of
claims under 11 U.S.C. § 524(a)(2) for violations of a
discharge injunction. In re Belton, 2015 WL 6163083, at
*9. In so doing, the Court held, among other things,
there was no inherent conflict between the FAA and

20a
Section 524 because “arbitrating plaintiffs-appellees’
Section 524 claims would neither necessarily nor
seriously jeopardize the objectives of that section or of
the Bankruptcy Code in general.” Id. at *7. On the
other hand, in In re Anderson, the Second Circuit held
“arbitration of a claim based on an alleged violation of
Section 524(a)(2) would ‘seriously jeopardize a
particular core bankruptcy proceeding’” and thus create
an inherent conflict with the Bankruptcy Code. In re
Anderson, 884 F.3d at 389–90 (quoting In re U.S. Lines,
Inc., 197 F.3d 631, 641 (2d Cir. 1999)).
Moreover, the Second Circuit’s orders clearly
indicate the Circuit considers In re Anderson to affect
the disposition of this case. The Circuit stayed plaintiffsappellees’ petitions for writs of mandamus “pending a
ruling in In re Anderson,” Motion Order, In re Bruce,
No. 16-830 (Dkt. 69) (2d Cir. Dec. 15, 2016); Motion
Order, In re Belton, No. 16-833 (Dkt. 68) (2d Cir. Dec.
15, 2016), and ultimately denied the petitions
specifically because plaintiffs-appellees could seek
reconsideration of the October 14 Decision “in light of”
In re Anderson. See Order, In re Bruce, No. 16-830
(Dkt. 96) (2d Cir. June 26, 2018); Order, In re Belton, No.
16-833 (Dkt. 96) (2d Cir. June 26, 2018). Therefore, In
re Anderson represents an intervening change of
controlling law.
Defendants-appellants argue In re Anderson does
not represent an intervening change of controlling law
because the Second Circuit declined to address the
Bankruptcy Code’s text and legislative history, whereas
this Court found the Bankruptcy Code’s text and
legislative history weighed against the conclusion that

21a
Congress intended to preclude arbitration of Section 524
claims. However, as this Court held in its October 14
Decision, “the Court may look to the Bankruptcy Code’s
text, its legislative history, ‘or [to] an inherent conflict
between arbitration and the [Code]’s underlying
purposes’” to decide whether Congress intended to
preclude arbitration of Section 524 claims. In re Belton,
2015 WL 6163083, at *5 (quoting Shearson/Am. Exp.,
Inc. v. McMahon, 482 U.S. 220, 227 (1987) (emphasis
added)) (alterations in original); see also In re Anderson,
884 F.3d at 388 (“Congressional intent may be discerned
through the ‘text or legislative history, or from an
inherent conflict between arbitration and the statute’s
underlying purposes.’” (quoting Shearson/Am. Exp.,
Inc. v. McMahon, 482 U.S. at 227)). Thus, the fact that
the Second Circuit declined to address the Bankruptcy
Code’s text and legislative history does not detract from
In re Anderson’s precedential value in this case.
Defendants-appellants also argue In re Anderson is
inconsistent with the Supreme Court’s decision in Epic
Systems Corp. v. Lewis, 138 S. Ct. 1612 (2018). In that
case, the Supreme Court held Section 7 of the National
Labor Relations Act (“NLRA”), which guarantees
workers “the right to self-organization, to form, join, or
assist labor organizations, to bargain collectively
through representatives of their own choosing, and to
engage in other concerted activities for the purpose of
collective bargaining or other mutual aid or protection,”
did not displace the FAA and outlaw arbitration
agreements requiring individualized arbitration. Id. at
1619, 1624 (quoting 29 U.S.C. § 157).

22a
Defendants-appellants argue both that (i) the
Supreme Court conducted a text-first analysis in Epic
Systems Corp. v. Lewis that contradicts the Second
Circuit’s inherent conflict approach in In re Anderson,
and (ii) the inherent conflict approach is no longer viable
post- Epic Systems Corp. v. Lewis—essentially the same
argument this Court rejected in the October 14 Decision,
when defendants-appellants argued the inherent conflict
approach was no longer viable post-CompuCredit Corp.
v. Greenwood, 132 S. Ct. 665 (2012). See In re Belton,
2015 WL 6163083, at *5.
Neither argument is persuasive. “[T]he Second
Circuit has spoken directly to the issue presented by this
case, and this Court is required to follow that decision
‘unless and until it is overruled in a precedential opinion
by the Second Circuit itself or unless a subsequent
decision of the Supreme Court so undermines it that it
will almost inevitably be overruled by the Second
Circuit.’” United States v. Diaz, 122 F. Supp. 3d 165, 179
(S.D.N.Y. 2015), aff’d, 854 F.3d 197 (2d Cir. 2017). The
Supreme Court did not “so undermine[]” the inherent
conflict test such that In re Anderson will almost
inevitably be overruled by the Second Circuit. Id.
Indeed, that the Circuit has continued to apply the
inherent conflict test even after the Supreme Court
bypassed it in multiple cases suggests the Circuit is not
inclined to abandon the inherent conflict test until the
Supreme Court more explicitly abrogates it.
Finally, defendants-appellants argue the Court
should refuse to grant reconsideration of the October 14
Decision because plaintiffs-appellees were dilatory in
failing to pursue arbitration in the three years since the

23a
decision. The Court disagrees. Plaintiffs-appellees were
not dilatory. On December 15, 2016, the Second Circuit
issued orders staying plaintiffs-appellees petitions for
writs of mandamus “pending a ruling in In re Anderson.”
Motion Order, In re Bruce, No. 16-830 (Dkt. 69) (2d Cir.
Dec. 15, 2016); Motion Order, In re Belton, No. 16-833
(Dkt. 68) (2d Cir. Dec. 15, 2016). Plaintiffs-appellees
were well within their rights to wait for the Second
Circuit’s decision on their requests for writs of
mandamus before commencing arbitration.
The motions for reconsideration are GRANTED.
This Court’s October 14, 2015, Memorandum
Decision, and the order to remand contained therein, are
VACATED.
The Bankruptcy Court’s orders denying defendantsappellants’ motions to compel arbitration are
AFFIRMED. The Bankruptcy Court is directed to
conduct further proceedings consistent with this
Opinion and Order.
The Clerk is instructed to terminate the motions. (In
re Belton, 15 Civ. 1934 (Doc. #37); In re Bruce, 15 Civ.
3311 (Doc. #30)).
Dated:

March 4, 2019
White Plains, NY
SO ORDERED:

Vincent L. Briccetti

24a
United States District Judge

25a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
--------------------------------------------------x
In re:
:
:
NYREE BELTON,
:
Debtor.
:
--------------------------------------------------x
NYREE BELTON, Debtor and
: 15 CV 1934 (VB)
Plaintiff on behalf of herself and all :
others similarly situated,
:
Plaintiff,
:
v.
:
:
GE CAPITAL CONSUMER
:
LENDING, INC. a/k/a GE MONEY :
BANK,
:
Defendant.
:
--------------------------------------------------x
In re:
:
:
KIMBERLY BRUCE,
:
Debtor.
:
--------------------------------------------------x 15 CV 3311 (VB)
KIMBERLY BRUCE, Debtor and :
Plaintiff on behalf of herself and all :
others similarly situated,
:
Plaintiff,
:
v.
:
:

26a
CITIGROUP INC., CITIBANK,
:
N.A., and CITIBANK
:
(SOUTH DAKOTA), N.A.,
:
Defendants.
:
--------------------------------------------------x
Briccetti, J.:
In these related bankruptcy appeals, defendantsappellants GE Capital Retail Bank1 (“GE”), as well as
Citigroup Inc. and Citibank, N.A., successor-in-interest
to Citibank (South Dakota), N.A. (together, “Citi”),
appeal from orders of the United States Bankruptcy
Court for the Southern District of New York (Drain, J.)
denying their respective motions to compel arbitration
under the Federal Arbitration Act (“FAA”), 9 U.S.C. § 1
et seq.
For the following reasons, the Bankruptcy Court’s
orders are REVERSED.
The Court has subject matter jurisdiction pursuant
to 28 U.S.C. § 158(a).
In 2007, plaintiffs-appellees Nyree Belton and
Kimberly Bruce each opened credit card accounts;
Belton opened an account with GE, and Bruce opened
an account with Citi. Both Belton’s credit card
agreement with GE and Bruce’s credit card agreement
with Citi contain arbitration provisions. The arbitration
1

GE Capital Retail Bank was formerly known as GE Money Bank,
which is named in the Belton case caption as an “also known as” for
GE Capital Consumer Lending, Inc.

27a
provision in Belton’s agreement provides, in relevant
part: “[A]ny past, present or future legal dispute or
claim of any kind, including statutory and common law
claims and claims for equitable relief, that relates in any
way to your account, card or your relationship with us
(‘Claim’) will be resolved by binding arbitration if either
you or we elect to arbitrate.” (Belton A112).2 Bruce’s
agreement similarly states: “All Claims [defined as ‘any
claim, dispute, or controversy between you and us’]
relating to your account, a prior related account, or our
relationship are subject to arbitration.” (Bruce A444).
Both credit card agreements also have provisions
discussing credit reporting, including the process for
cardholders to follow if they believe defendantsappellants have provided “inaccurate” or “erroneous”
information to credit reporting agencies. (Belton A112;
Bruce A442).
In May 2012, Belton filed a voluntary petition for
bankruptcy under Chapter 7 of the Bankruptcy Code.
Bruce did the same in January 2013. Both petitions were
filed in the United States Bankruptcy Court for the
Southern District of New York.
The Bankruptcy Court eventually entered a
discharge order in each case, thereby closing the cases
and discharging plaintiffs-appellees’ debts. Among their
discharged debts were debts they incurred with their
GE and Citi credit cards, respectively.

2

“Belton A___” and “Bruce A___” refer to the appendices
submitted in these appeals.

28a
In October 2012, after receiving her discharge,
Belton obtained her credit report from Equifax, a credit
reporting agency. The credit report included an entry,
or “tradeline,” for her GE credit card account. That
account was listed as “charged off,” which, according to
plaintiffs-appellees, means a “debt [i]s currently due and
owing.” (Pls.’ Br. at 4). The credit report gave no
indication Belton’s credit card debt had been discharged
in bankruptcy.
Similarly, when Bruce obtained her credit report in
September 2013, the report described her Citi credit card
debt as “charged-off” rather than as having been
discharged in bankruptcy.
In 2014, plaintiffs-appellees moved to re-open their
bankruptcy cases. After the motions were granted, they
each commenced a putative class action adversary
proceeding.
Plaintiffs-appellees allege defendantsappellants, as a matter of policy and practice,
deliberately fail to inform credit reporting agencies
about the discharge of debts in bankruptcy because
former debtors will often pay discharged debts to have
them removed from their credit reports. Defendantsappellants allegedly profit from debtors paying off
discharged debts by (i) selling those debts, as well as
information related thereto, to buyers who are willing to
pay more for them because of the likelihood the debts
will be paid off; and (ii) receiving a percentage—in some
cases 100 percent—of each repaid debt. Plaintiffsappellees allege defendants-appellants’ practices violate
the Bankruptcy Code’s discharge injunction, which
provides that a discharge order “operates as an
injunction against . . . an act, to collect, recover or offset

29a
any such debt as a personal liability of the debtor.”
11 U.S.C. § 524(a)(2). Plaintiffs-appellees seek, among
other relief, to have defendants-appellants held in
contempt for willfully violating discharge orders.
On June 30 and July 3, 2014, Citi and GE,
respectively, moved to compel arbitration of the claims
against them and to stay the adversary proceedings
pending arbitration.
While its motion was pending, GE had Belton’s
discharged credit card debt removed from her credit
report. Citi likewise had Bruce’s discharged debt
removed from her credit report.
In October 2014, the United States Trustee filed an
application in Belton’s re-opened bankruptcy case for an
order authorizing the Trustee to conduct an examination
of GE pursuant to Rule 2004 of the Federal Rules of
Bankruptcy.3 Specifically, the Trustee sought to serve a
subpoena duces tecum on GE and to compel a GE
representative to answer oral questions. The Trustee
filed a similar application in Bruce’s bankruptcy case in
December 2014. The Bankruptcy Court granted both
applications in January 2015.
On November 10, 2014, the Bankruptcy Court issued
an order denying GE’s motion to compel arbitration.
(Belton A684). The Bankruptcy Court set forth its
reasons for doing so in a “Corrected and Modified Bench
3

A Rule 2004 examination is a “very broad,” “pre-litigation”
discovery process designed “to assist the trustee in revealing the
nature and extent of the estate, ascertaining assets, and discovering
whether any wrongdoing has occurred.” In re Corso, 328 B.R. 375,
383 (E.D.N.Y. 2005) (internal quotation marks omitted).

30a
Ruling” issued the same day. See In re Belton, 2014 WL
5819586 (Bankr. S.D.N.Y. Nov. 10, 2014). Two days
later, on November 12, 2014, the Bankruptcy Court
issued an order denying Citi’s motion to compel
arbitration substantially for the reasons stated in its
Corrected and Modified Bench Ruling. (Bruce A620).
Defendants-appellants sought leave to appeal those
orders directly to the United States Court of Appeals for
the Second Circuit, which denied their applications on
March 3 and April 7, 2015, respectively. Accordingly,
GE filed the pending appeal in this Court on March 13,
2015, and Citi did so on April 28, 2015.
I. Standard of Review
A district court “may affirm, modify, or reverse a
bankruptcy judge’s judgment, order, or decree.” Fed. R.
Bankr. P. 8013. A district court reviews a bankruptcy
court’s conclusions of law de novo and its findings of fact
under a clearly erroneous standard. See In re Ames
Dep’t Stores, Inc., 582 F.3d 422, 426 (2d Cir. 2009) (citing
Momentum Mfg. Corp. v. Emp. Creditors Comm., 25
F.3d 1132, 1136 (2d Cir. 1994)).
II. Arbitrability of Plaintiffs-Appellees’ Claims
The FAA provides, in relevant part: “A written
provision in . . . a contract evidencing a transaction
involving commerce to settle by arbitration a controversy
thereafter arising out of such contract or transaction . . .
shall be valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the revocation of
any contract.” 9 U.S.C. § 2. The statute reflects a “liberal

31a
federal policy favoring arbitration,” AT&T Mobility LLC
v. Concepcion, 131 S. Ct. 1740, 1745 (2011) (internal
quotation marks omitted), and establishes a “preference
for enforcing arbitration agreements . . . even when the
claims at issue are federal statutory claims.” Parisi v.
Goldman, Sachs & Co., 710 F.3d 483, 486 (2d Cir. 2013).
In deciding whether to compel arbitration, “a court
must consider (1) whether the parties have entered into a
valid agreement to arbitrate, and, if so, (2) whether the
dispute at issue comes within the scope of the arbitration
agreement.” In re Am. Express Fin. Advisors Secs.
Litig., 672 F.3d 113, 128 (2d Cir. 2011). And when any of
claims at issue arise under a federal statute, the court
must also determine whether Congress intended such
federal statutory claims to be arbitrated, and whether
arbitration would “prevent the ‘effective vindication’ of
[the] federal statutory right.” Am. Express Co. v. Italian
Colors Rest., 133 S. Ct. 2304, 2309-10 (2013).
Although the Bankruptcy Court ultimately denied
defendants-appellants’ motions to compel arbitration, it
concluded the parties’ arbitration agreements were
valid and covered plaintiffs-appellees’ claims. Plaintiffsappellees challenge those rulings on appeal.
Accordingly, the Court first considers whether the
arbitration agreements are valid.
A. Validity of Arbitration Agreements
Plaintiffs-appellees contend their bankruptcy
discharges rendered their arbitration agreements

32a
unenforceable.4 According to plaintiffs-appellees, their
discharges relieved them of all of their obligations under
their credit card agreements—including their obligation
to arbitrate.
However, in MBNA America Bank, N.A. v. Hill, the
Second Circuit enforced an arbitration clause even
though the plaintiff had already been granted a
discharge. 436 F.3d 104, 106, 110-11 (2d Cir. 2006). Hill
thus appears to foreclose plaintiffs-appellees’ argument.
In any event, Supreme Court precedent makes clear
that “a party’s challenge to . . . [a] contract as a whole,
does not prevent a court from enforcing a specific
agreement to arbitrate.” Rent-A-Center, W., Inc. v.
Jackson, 561 U.S. 63, 70 (2010) (emphasis added). “That
is because § 2 [of the FAA] states that a ‘written
provision’ ‘to settle by arbitration a controversy’ is
‘valid, irrevocable, and enforceable’ without mention of
the validity of the contract in which it is contained.” Id.
Indeed, “[a]s a matter of substantive federal arbitration
law, an arbitration provision is severable from the
remainder of the contract.” Id. at 70-71. Thus, an
arbitration agreement may be declared unenforceable
only when a party “challenges specifically the validity of
the agreement to arbitrate,” as opposed to the validity
of the entire contract. Id. at 70 (internal quotation marks
omitted).

4

Although plaintiffs-appellees include this argument in a section of
their brief discussing the scope of the arbitration agreements (Pls.’
Br. at 38-41), this argument assails the validity, rather than the
scope, of the arbitration agreements.

33a
Here, plaintiff-appellees do not make any arguments
about why their agreements to arbitrate, in and of
themselves, are unenforceable; rather, they attack the
enforceability of their credit card agreements as a whole.
Plaintiffs-appellees therefore have failed to show their
arbitration agreements are invalid under Jackson.
Accordingly, the Court next considers whether
plaintiffs-appellees’ claims fall within the scope of their
arbitration agreements.
B. Scope of Arbitration Agreements
Plaintiffs-appellees contend their claims exceed the
scope of their respective arbitration agreements
because those agreements apply only to claims or
disputes between the parties, whereas the claims here
are, in effect, between defendants-appellants and the
Bankruptcy Court. As plaintiffs-appellees explain,
these actions seek to hold defendants-appellants in
contempt for violating the Bankruptcy Court’s
discharge orders, meaning, in plaintiffs-appellees’ view,
“the Bankruptcy Court itself is a party to each action,
since it is the Bankruptcy Court’s injunction that has
allegedly been violated and it is the Bankruptcy Court’s
. . . powers that provide the means through which the
violation can be remedied.” (Pls.’ Br. at 39).
But “[i]n determining whether a particular claim falls
within the scope of the parties’ arbitration agreement,”
the Court focuses “on the factual allegations in the
complaint rather than the legal causes of action
asserted.” Genesco, Inc. v. T. Kakiuchi & Co., 815 F.2d
840, 846 (2d Cir. 1987). “If the allegations underlying the
claims ‘touch matters’ covered by the parties [credit

34a
card] agreements, then those claims must be arbitrated,
whatever the legal labels attached to them.” Id. (quoting
Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth,
Inc., 473 U.S. 614, 624 n.13 (1985)).
Plaintiffs-appellees allege defendants-appellants
deliberately failed to remove discharged debts, or have
discharged debts removed, from plaintiffs-appellees’
credit reports. The parties’ credit card agreements
specifically discuss credit reporting, including the
process for plaintiffs-appellees to follow if they believe
defendants-appellants have provided “inaccurate” or
“erroneous” information to credit reporting agencies.
(Belton A112; Bruce A442). Thus, the factual allegations
underlying plaintiffs-appellants’ claims clearly “touch
matters” covered by their credit card agreements.
Accordingly, irrespective of the relief plaintiffsappellees seek or the means by which they hope to obtain
such relief, their claims fall within the scope of their
arbitration agreements.
Having concluded the arbitration agreements are
valid and cover the claims asserted here, the Court next
considers whether Congress intended claims under
Section 524 to be arbitrable.
C. Congressional Intent to Preclude Arbitration of
Section 524 Claims
As noted above, the FAA establishes a “preference
for enforcing arbitration agreements.”
Parisi v.
Goldman, Sachs & Co., 710 F.3d at 486. The statute thus
generally “requires courts to enforce agreements to
arbitrate according to their terms . . . even when the
claims at issue are federal statutory claims.”

35a
CompuCredit Corp. v. Greenwood, 132 S. Ct. 665, 669
(2012). But “the FAA’s mandate [may be] overridden” if
the federal statute alleged to have been violated contains
“a contrary congressional command,” id. (internal
quotation marks omitted), that is, if the statute evinces
Congress’ intent to have courts, not arbitrators, decide
claims arising under the statute.
See Gilmer v.
Interstate/Johnson Lane Corp., 500 U.S. 20, 26 (1991).
“The party opposing arbitration has the burden of
showing that Congress intended to preclude arbitration
of the statutory rights at issue.” MBNA Am. Bank, N.A.
v. Hill, 436 F.3d at 108.
The parties disagree about how to ascertain whether
Congress intended to foreclose arbitration of discharge
injunction claims under Section 524. Plaintiffs-appellees
contend this intent may be divined “from [the
Bankruptcy Code’s] text or legislative history, or from
an inherent conflict between arbitration and the [Code]’s
underlying
purposes,”
as
set
forth
in
Shearson/American Express, Inc. v. McMahon, 482
U.S. at 227 (internal citation and quotation marks
omitted). (Pls.’ Br. at 15, 22). Defendants-appellants
maintain the Supreme Court’s recent decision in
CompuCredit Corp. v. Greenwood, which considered
whether the Credit Repair Organizations Act (“CROA”)
prohibits arbitration of claims made thereunder,
requires plaintiffs-appellees to identify “explicit
statutory language” exempting their claims from
arbitration; a statute’s legislative history or an “inherent
conflict” is not enough. (GE Br. at 18; accord Citi Br. at
10 (federal statutory claims must be arbitrated “in the

36a
absence of an express contradiction in the text of the
statute”)).
The Court agrees with plaintiffs-appellees. Although
CompuCredit held CROA claims are subject to
arbitration “[b]ecause the CROA is silent on whether
claims under the Act can proceed in an arbitrable
forum,” 132 S. Ct. at 673, CompuCredit cannot be read
as impliedly overruling McMahon, particularly given
that CompuCredit cites McMahon for the proposition
that the FAA may be “overridden by a contrary
congressional command.”
CompuCredit Corp. v.
Greenwood, 132 S. Ct. at 669 (internal quotation marks
omitted). Indeed, Justices Sotomayor and Kagan, who
concurred in the judgment in CompuCredit, did “not
understand the majority opinion to hold that Congress
must speak so explicitly in order to convey its intent to
preclude arbitration of statutory claims. We have never
said as much, and on numerous occasions have held that
proof of Congress’ intent may also be discovered in the
history or purpose of the statute in question.” Id. at 675
(Sotomayor and Kagan, J.J., concurring). And, as
plaintiffs-appellees point out, in arguing that the CROA
overrode the FAA, respondents in CompuCredit did not
rely on the CROA’s legislative history, nor did they
make an “inherent conflict” argument; “[c]onsequently,
the sole question for the Court [wa]s whether the text of
the CROA precludes arbitration with sufficient clarity
to override the operation of the FAA.” (Pls.’ Br. at 24
(quoting petitioners’ brief in CompuCredit, 2011 WL
2533009, at *18 (June 23, 2011))).
Accordingly, in deciding whether Congress intended
to preclude arbitration of Section 524 claims, the Court

37a
may look to the Bankruptcy Code’s text, its legislative
history, “or [to] an inherent conflict between arbitration
and the [Code]’s underlying purposes.” Shearson/Am.
Exp., Inc. v. McMahon, 482 U.S. at 227 (emphasis
added). That said, “[t]hroughout such an inquiry, it
should be kept in mind that questions of arbitrability
must be addressed with a healthy regard for the federal
policy
favoring
arbitration.”
Gilmer
v.
Interstate/Johnson Lane Corp., 500 U.S. at 26 (internal
quotation mark omitted).
1. Text and Legislative History
Neither Section 524, nor the Bankruptcy Code in
general, expressly mentions arbitration.
28 U.S.C. § 1334 does, however, discuss jurisdiction
over bankruptcy-related matters. The statute provides,
in relevant part, that federal district courts “have
original but not exclusive jurisdiction of all civil
proceedings arising under title 11, or arising in or
related to cases under title 11,” 28 U.S.C. § 1334(b)
(emphasis added), but retain exclusive jurisdiction over
“claims or causes of action that involve construction of
section 327 of title 11, United States Code, or rules
relating to disclosure requirements under section 327.”5
Id. § 1334(e)(2).
By declining to give district courts exclusive
jurisdiction over most bankruptcy-related civil
5

Section 327 of the Bankruptcy Code addresses the retention and
compensation of professionals, such as attorneys, accountants,
appraisers, and auctioneers, in connection with a bankruptcy
proceeding.

38a
proceedings, Section 1334(b) on its face appears to
permit arbitration of such proceedings. See MBNA Am.
Bank, N.A. v. Hill, 436 F.3d at 110 (citing Section 1334
and noting that “[a]rbitration is presumptively an
appropriate and competent forum for federal statutory
claims” and that litigation of claims under the
Bankruptcy Code’s automatic stay provision “is not a
matter within the exclusive jurisdiction of the
bankruptcy courts”).
And to the extent it can be argued that a grant of
exclusive jurisdiction over certain claims provides some
evidence of Congress’ intent to preclude arbitration of
those claims,6 the fact that in subsection (e)(2) of Section
1334 Congress vested district courts with exclusive
jurisdiction over Section 327 claims—but not Section 524
claims—cuts against the conclusion that Congress
intended to exempt Section 524 claims from arbitration.
See Hays & Co. v. Merrill Lynch, Pierce, Fenner &
Smith, Inc., 885 F.2d 1149, 1157 n.11 (3d Cir. 1989)
(“Where Congress has specifically indicated subjugation
of arbitration to the dictates of the bankruptcy laws in
one situation, but not in another, we must presume that
Congress neither intended to subjugate arbitration in
the second instance, nor saw the two laws as conflicting
in this respect.”). Congress added subsection (e)(2) in
6

In McMahon, the Supreme Court held that claims under Section
10(b) of the Securities Exchange Act are subject to arbitration even
though the statute grants district courts exclusive jurisdiction over
such claims. 482 U.S. at 227-28. The dissent pointed out, however,
that “the limitation of § 10(b) actions to federal court argues against
enforcing predispute arbitration agreements as to such actions.” Id.
at 245 n.2 (Blackmun, J., dissenting).

39a
2005, after “a string of [Supreme] Court[] decisions
compelling arbitration pursuant to contractual
stipulations . . . [had] alerted Congress to the utility of
drafting anti[-arbitration] prescriptions with meticulous
care.” CompuCredit Corp. v. Greenwood, 132 S. Ct. at
669 (Ginsburg, J., dissenting). Thus, had Congress
intended to give federal courts exclusive jurisdiction
over Section 524 claims, or otherwise express its intent
to preclude arbitration of those claims, it knew how to do
so.
Accordingly, text and legislative history weigh
against the conclusion that Congress intended to
preclude arbitration of Section 524 claims.
2. Inherent Conflict
An “inherent conflict” exists between the FAA and a
provision of the Bankruptcy Code if arbitrating a claim
arising under that provision would “necessarily” and
“seriously” jeopardize the Code’s objectives, which
include “the goal of centralized resolution of purely
bankruptcy issues, the need to protect creditors and
reorganizing debtors from piecemeal litigation, and the
undisputed power of a bankruptcy court to enforce its
own orders.” MBNA Am. Bank, N.A. v. Hill, 436 F.3d
at 108-09 (internal quotation marks omitted).
Determining whether arbitration of a claim would
necessarily and seriously jeopardize the Code’s
objectives “requires a particularized inquiry into the
nature of the claim and the facts of the specific
bankruptcy.” Id. at 108. Only if a “severe conflict” is
found can a court “properly conclude that, with respect
to the particular Code provision involved, Congress
intended to override the Arbitration Act’s general policy

40a
favoring the enforcement of arbitration agreements.”
Id.
Here, arbitrating plaintiffs-appellees’ Section 524
claims would neither necessarily nor seriously
jeopardize the objectives of that section or of the
Bankruptcy Code in general.
The Bankruptcy Court concluded plaintiffsappellees’ Section 524 claims should not be arbitrated
principally because giving the debtor a “fresh start” is
the most fundamental objective of the Bankruptcy Code;
the discharge injunction secures that objective; and,
therefore, allowing an arbitrator rather than a
bankruptcy court to adjudicate a claim for violation of
the discharge injunction would seriously undermine that
objective. See In re Belton, 2014 WL 5819586, at *8.
But the fact that a plaintiff alleges a violation of an
important, even fundamental, Bankruptcy Code
provision is not enough to exempt such a claim from
arbitration. In MBNA America Bank, N.A. v. Hill, the
Second Circuit compelled arbitration of a putative class
action adversary proceeding alleging violations of the
Bankruptcy Code’s automatic stay provision, even
though the court recognized “the automatic stay is
surely an important provision of the Bankruptcy Code.”
436 F.3d at 110; accord Midlantic Nat’l Bank v. N.J.
Dep’t of Envtl. Prot., 474 U.S. 494, 503 (1986) (“The
automatic stay provision . . . has been described as one
of the fundamental debtor protections provided by the
bankruptcy laws.” (internal quotation marks omitted)).
Indeed, “by agreeing to arbitrate a statutory claim, a
party does not forgo the substantive rights afforded by
the statute; it only submits to their resolution in an

41a
arbitral, rather than a judicial, forum.” Gilmer v.
Interstate/Johnson Lane Corp., 500 U.S. at 26 (internal
quotation marks omitted).
The Bankruptcy Court misread Hill as
“articulat[ing] in very strong dicta that when the
debtor’s fresh start is at issue, an enforcement
proceeding in the bankruptcy court should not be
stayed in favor of arbitration.” In re Belton, 2014 WL
5819586, at *8. In Hill, the Second Circuit held that
arbitration of the plaintiff’s automatic stay claim would
not seriously jeopardize the objectives of the
Bankruptcy Code, “[f]irst, and most importantly,”
because the plaintiff had received a discharge and,
therefore, “no longer require[d] the protection of the
stay to ensure her fresh start.” 436 F.3d at 110. The
Bankruptcy Court interpreted Hill as suggesting that,
had the stay been necessary to ensure the plaintiff’s
fresh start, arbitration would not have been
appropriate; and because the discharge injunction is
necessary to obtain a fresh start, the reasoning goes,
Hill should be viewed as cautioning against arbitration
of actions to enforce that injunction.
But Hill cannot be construed as supporting the
notion that arbitration is unavailable whenever “the
debtor’s fresh start is at issue.” In re Belton, 2014 WL
5819586, at *8. Hill stands for the more modest
proposition that claims alleging violations of the
Bankruptcy Code should not be arbitrated if those
claims are “integral to [the] bankruptcy court’s ability to
preserve and equitably distribute assets of the estate”
or if arbitration would “substantially interfere with [the
debtor’s] efforts to reorganize.” 436 F.3d at 110 (internal

42a
quotation marks omitted). Conversely, under Hill,
arbitration of claims under the Bankruptcy Code is
required when “arbitration would not interfere with or
affect the distribution of the estate” or would not “affect
an ongoing reorganization,” as was the case there. Id. at
109-10.
In support of the latter proposition, Hill cited
Bigelow v. Green Tree Financial Servicing Corp., 2000
WL 33596476 (E.D. Cal. Nov. 30, 2000), a case in which
the court compelled arbitration of the plaintiff’s claims—
including a claim for violation of the discharge injunction
under Section 524—because the claims did “not address
the liquidation of the estate nor the priority of creditor’s
claims.” Id. at *6. The court therefore “perceive[d] no
adverse effect on the underlying purposes of the code
from enforcing arbitration.” Id. The same reasoning
applies here. Because arbitration of plaintiffs-appellees’
Section 524 claims “would not interfere with or affect the
distribution of the estate” and would not “affect an
ongoing reorganization,” it cannot be said arbitration
would necessarily or seriously jeopardize the objectives
of the Bankruptcy Code in this case. MBNA Am. Bank,
N.A. v. Hill, 436 F.3d at 109-10.
Hill’s two other bases for holding that arbitration of
the plaintiff’s automatic stay claim would not seriously
jeopardize the objectives of the Bankruptcy Code apply
equally here as well.
The Second Circuit observed that “the fact Hill filed
her [automatic stay] claim as a putative class action”
weighed in favor of compelling arbitration. MBNA Am.
Bank, N.A. v. Hill, 436 F.3d at 110. “By tying her claim
to a class of allegedly similarly situated individuals,

43a
many of whom are no longer in bankruptcy
proceedings,” the court explained, Hill “demonstrate[d]
the lack of a close connection between the claim and her
own underlying bankruptcy case.” Id. In other words,
bringing her claim as part of a putative class action
underscored the fact that the claim was not “integral” to
her own bankruptcy case. Id.; cf. In re U.S. Lines, Inc.,
197 F.3d 631, 641 (2d Cir. 1999) (reversing order
compelling arbitration of declaratory judgment
proceedings because they were “integral to the
bankruptcy court’s ability to preserve and equitably
distribute the Trust’s assets”). The same goes here for
plaintiffs-appellees.
The Second Circuit in Hill also relied on the fact that
the bankruptcy court was not “uniquely able to interpret
and enforce” the automatic stay provision. 436 F.3d at
110.
The court noted that “[a]rbitration is
presumptively an appropriate and competent forum for
federal statutory claims,” id., and there was nothing to
suggest the bankruptcy court was more qualified than
an arbitrator to adjudicate a claim alleging violations of
the automatic stay.
Similarly here, a discharge order “is a form, a
national form, which is issued in every case when there
is, in fact, a discharge”; it is “not a handcrafted order.”
In re Haynes, 2014 WL 3608891, at *8 (Bankr. S.D.N.Y.
July 22, 2014). Accordingly, the Bankruptcy Court is not
“uniquely able to interpret and enforce” such an order.
MBNA Am. Bank v. Hill, 436 F.3d at 110. This point is
only reinforced by the fact that plaintiffs-appellees have
brought putative class actions asking one bankruptcy
court to enforce the discharge orders of many other

44a
bankruptcy courts. Arbitration of plaintiffs-appellees’
Section 524 claims therefore would not necessarily or
seriously jeopardize the goal of having bankruptcy
courts enforce their own orders. Id. at 108.
In short, Hill does not support denial of defendantsappellants’ motions to compel.
Plaintiffs-appellees also contend that arbitrating
their claims would necessarily and seriously jeopardize
the Bankruptcy Code’s goal of avoiding piecemeal
litigation. See MBNA Am. Bank v. Hill, 436 F.3d at 108.
As plaintiffs-appellees argue, the United States Trustee
has “intervened in these cases” to conduct examinations
pursuant to Federal Rule of Bankruptcy Procedure
2004, but the Trustee is obviously not a party to their
arbitration agreements; thus, because “[t]he Trustee’s
actions cannot be arbitrated . . . the granting of
Defendants-Appellants’ motions would lead to
duplicative proceedings.” (Pls.’ Br. at 37-38).
Although the Trustee has intervened in plaintiffsappellees’ bankruptcy cases, the Trustee has not joined
in the adversary proceedings that defendants-appellants
seek to arbitrate. Indeed, as the Bankruptcy Court
noted, the Trustee is conducting a “separate inquiry”
that is “not really tied to” the adversary proceedings.
(Bruce A775). Sending the adversary proceedings to
arbitration therefore will not create any more
duplicative proceedings than already exist.
Accordingly, plaintiffs-appellees have failed to meet
their burden of showing Congress intended to preclude
arbitration of Section 524 claims.

45a
The Court therefore will next consider whether
arbitration would “prevent the ‘effective vindication’ of”
plaintiffs-appellees’ right to the fresh start secured by
the discharge injunction. Am. Express Co. v. Italian
Colors Rest., 133 S. Ct. at 2310.
D. Effective Vindication Doctrine
The “effective vindication” doctrine “originated as
dictum” in Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc., a case in which the Supreme Court
“expressed a willingness to invalidate, on public policy
grounds, arbitration agreements that operate as a
prospective waiver of a party’s right to pursue statutory
remedies.” Am. Express Co. v. Italian Colors Rest., 133
S. Ct. at 2310 (alterations and internal quotation marks
omitted).
“[S]o long as the prospective litigant
effectively may vindicate its statutory cause of action in
the arbitral forum,” the Court observed, “the statute
will continue to serve both its remedial and deterrent
function.” Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc., 473 U.S. at 637.
As the Supreme Court made clear in Italian Colors,
the doctrine will only invalidate an agreement that
eliminates “the right to pursue” a federal remedy, such
as an agreement “forbidding the assertion of certain
statutory rights” or imposing “filing and administrative
fees . . . that are so high as to make access to the [arbitral]
forum impracticable.” 133 S. Ct. at 2310-11. When “a
party seeks to invalidate an arbitration agreement on the
ground that arbitration would be prohibitively
expensive, that party bears the burden of showing the
likelihood of incurring such costs.” Green Tree Fin.
Corp.-Alabama v. Randolph, 531 U.S. 79, 92 (2000).

46a
Although the Bankruptcy Court concluded there was
a “risk” the costs of arbitration here would “make access
to the [arbitral] forum impracticable,” In re Belton, 2014
WL 5819586, at *9, the record is devoid of facts “showing
the likelihood” such costs would actually be incurred.
Green Tree Fin. Corp.-Alabama v. Randolph, 531 U.S.
at 92. The costs of arbitration here therefore cannot
serve as a basis for invalidating the arbitration
agreements.
The Bankruptcy Court also expressed concern about
“the ability of an arbitration panel to grant timely . . .
[and] effective relief.” In re Belton, 2014 WL 5819586,
at *10. The inability to grant timely relief, however, is
not tantamount to “the elimination of the right to
pursue” a federal statutory remedy. Am. Express Co. v.
Italian Colors Rest., 133 S. Ct. at 2311 (emphasis in
original). In any event, plaintiffs-appellees’ discharged
debts have been removed from their credit reports, thus
mitigating the need for urgent action. Cf. In re Belton,
2014 WL 5819586, at *10 (“[E]very day that a credit
report is inaccurate is another day that the debtor
believes she must pay her debt or be turned down for
new credit.”). And although the Bankruptcy Court
doubted whether an arbitrator could render a final
decision on any bankruptcy matters in light of the
Supreme Court’s decision in Stern v. Marshall, 131 S. Ct.
2594 (2011) (holding that a bankruptcy court lacks
constitutional authority to make final determinations on
certain types of core bankruptcy matters),7 in Wellness
7

As plaintiffs-appellees explain, “if the Bankruptcy Court does not
even have the power to issue a final order on some bankruptcy
matters, how could a non-Article III or a non-Article I arbitrator

47a
International Network, Ltd. v. Sharif, 135 S. Ct. 1932
(2015), the Supreme Court held that bankruptcy judges
could adjudicate all matters submitted to them on the
parties’ consent. The Court even noted that arbitration
is a long-accepted method of resolving cases on consent.
Id. at 1942.
Accordingly, arbitration of plaintiffs-appellees’
Section 524 claims would not prevent the effective
vindication of their right to a fresh start.
The Bankruptcy Court’s orders denying defendantsappellants’ motions to compel arbitration are
REVERSED. These cases are REMANDED to the
Bankruptcy Court with instructions to grant the
respective motions to compel and stay the adversary
proceedings pending arbitration, and for further
proceedings consistent with this Memorandum Decision.
The Clerk is instructed to close these cases.
Dated: October 14, 2015
White Plains, NY
SO ORDERED.

Vincent L. Briccetti
United States District Judge

have more power to finally resolve bankruptcy matters.” (Pls.’ Br.
at 32).

48a

IN RE: NYREE BELTON,
Debtor,
NYREE BELTON,
Debtor and Plaintiff
on behalf of herself
and all others similarly
situated,
v.

Case No. 12-23037
(RDD)
Chapter 7

Adv. No. 14-08223
(RDD)

GE CAPITAL CONSUMER
LENDING, INC., A/K/A
GE MONEY BANK
Defendant.

Upon the motion (the “Motion”), on due notice, of
defendant GE Capital Consumer Lending Inc. for an
order compelling arbitration and staying this proceeding
pursuant to 9 U.S.C. §§ 2-4; and upon plaintiff’s objection
to the Motion and all other pleadings filed in connection
therewith; and upon the record of the hearings held by
the Court on the Motion on September 11, 2014 and
October 6, 2014; and, after due deliberation and for the

49a
reasons stated in the Court’s corrected and modified
bench ruling, dated November 10, 2014, a copy of which
is attached hereto, the Court having found and
concluded that the plaintiff has sustained her burden in
opposition and that the Motion should not be granted, it
is hereby
ORDERED that the Motion is denied.
Dated: White Plains, New York
November 10, 2014
/s/ Robert D. Drain
United States
Bankruptcy Judge

50a
UNITED STATES BANKRUPTCY COURT
SOUTHERN DISTRICT OF NEW YORK
------------------------------------------------In re:
.
.
NYREE BELTON,
.
Chapter 7
.
Case No. 12Debtor.
.
23037 (RDD)
. . . . . . . . . . . . . .
NYREE BELTON,

.

Plaintiff,
v.
GE CAPITAL CONSUMER
LENDING, INC. A/K/A
GE MONEY BANK,
Defendant.

.
.
.
. Adv. P. No. 14. 08223 (RDD)
.
.
.
.
.
.

------------------------------------------------

APPEARANCES:
For the Plaintiff:

BOIES SCHILLER &
FLEXNER, LLP
By: George Carpinello, Esq.
30 South Pearl Street

51a
Albany, NY 12207
CHARLES JUNTIKKA &
ASSSOCIATES LLP
By: Charles W. Juntika, Esq.
1250 Broadway, 24th Floor
New York, NY 10001
For GE Capital Consumer
Lending, Inc.:
JENNER & BLOCK, LLP
By: Joseph L. Noga, IV, Esq.
919 Third Avenue, 37th Floor
New York, NY 10022
United States Trustee:

OFFICE OF THE UNITED
STATES TRUSTEE
By: Greg M. Zipes, Esq.
33 Whitehall Street, 21st Floor
New York, NY 10004

Hon. Robert D. Drain, United States Bankruptcy Judge
In this adversary proceeding, the plaintiff, Ms.
Belton seeks under 11 U.S.C. §§ 105(a) and 524, as well
as by invoking the Court’s inherent power to enforce and
find parties in contempt for breach of its orders, to
enforce the discharge of debt under section 727(a) of the
Bankruptcy Code that she received at the end of her
bankruptcy case. In addition to requesting relief on
behalf of Ms. Belton, the adversary proceeding also
seeks, pursuant to Fed. R. Bankr. P. 7023, to enforce the
discharge on behalf of a class of all similarly situated
debtors. (The Court previously addressed an issue
raised by the complaint’s request for class action relief

52a
in a closely analogous proceeding, Haynes v. Chase
Bank USA (In re Haynes), 2014 Bankr. LEXIS 3111
(Bankr. S.D.N.Y. July 22, 2014)).
The asserted factual basis for relief is that the
defendant, GE Capital Consumer Lending, Inc. (“GE
Capital”), while aware of Ms. Belton’s discharge, did not
correct one or more credit reports to show that her debt
originally owed to GE Capital was, in fact, discharged in
bankruptcy, instead permitting it to continue to be
represented as outstanding. The complaint asserts that
this was not a simple mistake by GE Capital but, rather,
an attempt to enforce the debt notwithstanding its
discharge.
The complaint asserts that when a credit report lists
debt as not having been discharged in bankruptcy, the
debtor’s fresh start, and more particularly her ability to
obtain credit in the future, including, for example, to buy
a home, an automobile or engage in other substantial
credit transactions, is materially impaired. As stated by
the editors of the leading bankruptcy treatise,
The failure to update a credit report to show that
a debt has been discharged is also a violation of
the discharge injunction if shown to be an attempt
to collect the debt. Because debtors often feel
compelled to pay debts listed in credit reports
when entering into large transactions, such as a
home purchase, it should not be difficult to show
that the creditor, by leaving discharged debts on
a credit report, despite failed attempts to have
the creditor update the report, is attempting to
collect the debt.

53a
4 Collier on Bankruptcy, ¶ 524.02[2][b] (16th ed. 2014),
at page 524-23; see also In re Haynes, 2014 Bankr.
LEXIS 3111, *5, and the cases cited therein.
The complaint asserts that GE Capital has a
concerted, widespread and profitable practice of not
reporting debt to it as discharged in bankruptcy in order
to pressure consumer debtors to clean up their credit
reports by paying debt that, as a matter of law embodied
in the discharge order, they do not have to pay.
The complaint’s merits (which GE Capital disputes),
are not presently at issue. Instead, what is before me is
GE Capital’s motion to stay this proceeding pursuant to
section 3 of the Federal Arbitration Act, 9 U.S.C. §§ 115 (the “FAA”), and to compel arbitration of the dispute
pursuant to sections 2 and 4 of the FAA.
The parties are party to an agreement, contained in
Ms. Belton’s credit card contract, which provides in
relevant part, “Any legal dispute or claim of any kind,
including statutory and common law claims and claims
for equitable relief that relate in any way to your
account, card, or your relationship with us will be
resolved by binding arbitration if either you or we elect
to arbitrate.” The credit card agreement also contains a
waiver of any class action remedy. Finally, it provides
We [GE Capital] will pay all filing, administrative
hearing and other fees the administrator or
arbitrator charges up to $2,500. If the cost is
higher, you can ask us to pay more and we will
consider your request in good faith. Under all
circumstances we will pay all amounts we are
required to pay under applicable law.

54a
Although the particular factual context of this motion
raises issues that have not been directly addressed by
the Second Circuit, or courts within the Circuit or by the
Supreme Court, the general standard by which the
Court should determine a motion to compel arbitration
under the FAA is reasonably well-established.
The FAA “reflects a legislative recognition of the
desirability of arbitration as an alternative to the
complications of litigation. The Act, reversing centuries
of judicial hostility to arbitration agreements, was
designed to allow parties to avoid the costliness and
delays of litigation, and to place arbitration agreements
upon the same footing as other contracts.” Genesco, Inc.
v. T. Kakiuchi & Co., Ltd., 815 F.2d 840, 844 (2d Cir. 1987)
(internal quotations and citations omitted). The FAA,
and in particular section 2 thereof, which provides that a
provision in a contract “evidencing a transaction
involving commerce to settle by arbitration a
controversy thereafter arising out of such contract or
transaction . . . shall be valid, irrevocable and enforceable,
save upon such grounds as exist in law or in equity for
the revocation of any contract,” is “a congressional
declaration of a liberal federal policy favoring arbitration
agreements . . . .” Moses H. Cone Mem’l Hosp. v.
Mercury Constr. Corp., 460 U.S. 1, 24 (1983). “This text
reflects the overarching principle that arbitration is a
matter of contract. And consistent with that text,
courts must rigorously enforce arbitration agreements
according to their terms, including terms that specify
with whom the parties choose to arbitrate their disputes
and the rules under which that arbitration will be
conducted.” American Express Co. v. Italian Colors

55a
Restaurant, 133 S. Ct. 2304, 2309 (2013) (internal
quotations and citations omitted). “That holds true for
claims that allege a violation of a federal statute, unless
the FAA’s mandate has been ‘overridden by a contrary
congressional command.’” Id. (quoting CompuCredit
Corp. v. Greenwood, 132 S. Ct. 665, 668-69 (2012)).
That being said, and consistent with the last clause of
the foregoing quotation, courts, including the Supreme
Court, have continued to recognize limitations on the
enforceability of arbitration agreements under section 2
of the FAA and the related obligation, which is
mandatory if the FAA applies, to stay proceedings
pending before them in favor of arbitration pursuant to
section 3 of the FAA.
Given the statutory directives in those two sections, a
court asked to stay proceedings and compel arbitration
in a case claimed to be covered by the FAA has
essentially four tasks. First, it must determine whether
the parties in fact agreed to arbitrate the dispute at
issue. Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc., 473 U.S. 614, 626 (1985).
Second, it must determine the scope of the parties’
agreement to arbitrate and whether the agreement is
revocable, “with a healthy regard for the federal policy
favoring arbitration [such that] any doubts concerning
the scope of arbitrable issues should be resolved in favor
of arbitration, whether the problem at hand is the
construction of the contract language itself or an
allegation of waiver, delay or a like defense to
arbitrability.” Id. See also AT&T Mobility LLC v.
Concepcion, 131 S. Ct. 1740, 1748 (2011) (“Although § 2’s
saving clause preserves generally applicable contract

56a
defenses, nothing in it suggests an intent to preserve
state-law rules that stand as an obstacle to the
accomplishment of the FAA’s objectives.”); Buckeye
Check Cashing, Inc. v. Cardegna, 546 U.S. 440, 446 (2006)
(arbitrator, not court, should consider claim that entire
contract, as opposed to arbitration provision itself, is void
for illegality); Prima Paint Corp. v. Flood & Conklin
Mfg. Co., 388 U.S. 395, 403-04 (1967) (federal case should
be stayed under section 3 of FAA in favor arbitration
unless arbitration provision, in contrast to contract in
which it appears, is revocable).
Third, “[l]ike any statutory directive the [FAA’s]
mandate may be overridden by a contrary congressional
command;” therefore, if federal statutory claims are
asserted in the pending action, the Court must consider
whether Congress intended those claims to be nonarbitrable. Shearson/American Express v. McMahon,
482 U.S. 220, 226-27 (1987). The burden is on the party
opposing arbitration to establish such contrary
congressional intent, which may be shown by the
allegedly conflicting statute’s text or legislative history
to establish either an express or inherent conflict
between arbitration and the statute’s underlying
purposes. Id.
Neither McMahon nor subsequent decisions equate
this inquiry with determining whether Congress has
impliedly repealed the FAA in the allegedly conflicting
statute, which would require a finding that the two
statutes are in “irreconcilable conflict, or where the
latter act covers the whole subject of the earlier one and
is clearly intended as a substitute.” Calcieri v. Salazar,
555 U.S. 379, 395 (2009). A lesser showing of Congress’

57a
express or inherent intent “to limit or prohibit waiver of
a judicial forum for a particular claim . . . deducible from
the statute’s text or legislative history, or from an
inherent conflict between arbitration and the statute’s
underlying purposes” is required. Shearson/American
Express v. McMahon, 482 U.S. at 227 (internal
quotations and citations omitted).
See also
CompuCredit Corp. v. Greenwood, 132 S. Ct. at 675
(Sotomayor, J., concurring opinion); United States Lines,
Inc. v. American S.S. Owners Mut. Protection & Indem.
Ass’n (In re United States Lines, Inc.), 197 F.3d 631, 640
(2d Cir. 1999), cert. denied, 529 U.S. 1038 (2000)
(arbitration clause should be enforced “unless [doing so]
would seriously jeopardize the objectives of the
[Bankruptcy] Code”).
Related to both this point and the second inquiry to
be undertaken, the Court may also refuse to enforce an
arbitration agreement if it would prevent the “effective
vindication of a statutory right.” American Express Co.
v. Italian Colors Restaurant, 133 S. Ct. 2304, 2310
(2013); Sutherland v. Ernst & Young LLP, 726 F.3d 290,
298 (2d Cir. 2013). However, in enforcing arbitration
between corporations that had waived the right to class
action relief, Italian Colors Restaurant also clarified
that “the fact that it is not worth the expense involved in
proving a statutory remedy [by arbitration] does not
constitute the elimination of the right to pursue that
remedy.” 133 S. Ct. at 2311 (emphasis in the original).
Thus, the “effective vindication” doctrine may now be
limited to invalidating “a provision in an arbitration
agreement forbidding the assertion of certain statutory
rights . . . [and] would perhaps cover filing and

58a
administrative fees attached to arbitration that are so
high as to make access to the forum impractical.” Id. at
2310-11 (emphasis added); see also Green Tree Financial
Corp.-Ala. v. Randolph, 531 U.S. 79, 90 (2000) (“It may
well be that the existence of large arbitration costs would
preclude a litigant . . . from effectively vindicating her
federal statutory rights.”).
Finally, if the Court concludes that some but not all of
the claims are arbitrable, it must determine whether to
stay the balance of the proceedings pending arbitration.
See generally Oldroyd v. Elmira Sav. Bank, FSB, 134
F.3d 72, 75-76 (2d Cir. 1998); Bethlehem Steel Corp. v.
Moran Towing Corp. (In re Bethlehem Steel Corp.), 390
B.R. 784, 789 (Bankr. S.D.N.Y. 2008). In this proceeding,
however, the plaintiff does not seek relief with the
exception of enforcing her discharge under the
Bankruptcy Code. The complaint does not invoke, for
example, alleged breaches of the Fair Credit Reporting
Act or other federal statutes or regulations. The Court
therefore need not consider the fourth step of the
foregoing analysis.
There is also no dispute regarding the terms of the
arbitration provision in the credit card agreement at
issue, which are broad, subjecting to arbitration
“any. . .claim of any kind, including statutory . . . claims
and claims for equitable relief, that relate in any way to
[Ms. Belton’s] account . . . or . . . relationship with [GE
Captial].”
The parties disagree, however, over the scope of the
arbitration provision -- or, rather, whether the parties
could have intended it to cover a claim to enforce Ms.
Belton’s bankruptcy discharge. They also, perhaps more

59a
aptly, dispute whether Congress intended a claim for the
enforcement of a bankruptcy discharge to be nonarbitrable.
When a party seeks, as here, to compel arbitration in
a bankruptcy context, both of these issues -- the scope of
the arbitration agreement and whether Congress
intended it to be superseded by the operation of the
Bankruptcy Code and the bankruptcy court’s
jurisdiction -- are for a number of reasons often
intertwined.
This is because, as has long been
recognized, bankruptcy proceedings raise several
inherent conflicts with the policies and purposes of the
FAA. That recognition, in the Second Circuit at least,
goes back at least to Bohack Corp. v. Truck Drivers
Local Union No. 807, International Brotherhood of
Teamsters, 431 F. Supp. 646 (E.D.N.Y 1977), aff’d, 567
F.2d 237 (2d Cir. 1977), cert. denied, 439 U.S. 825 (1978),
although it has been reiterated in many other decisions,
as well, including MBNA America Bank, N.A. v. Hill,
436 F.3d 104, 108 (2d Cir. 2006), and In re United States
Lines, Inc., 197 F.3d at 640.
Perhaps the most obvious conflict between the FAA
and the Bankruptcy Code is that bankruptcy cases are
predominantly collective, multi-party proceedings
rather than two-party disputes. The debtor is often a
mere stakeholder; thus, a prepetition agreement
between the debtor and a creditor that includes an
arbitration provision may not be said to cover disputes in
a bankruptcy case that involve multiple new parties who
did not agree, pre-bankruptcy to arbitration and who
have a statutory right to intervene under section 1109(b)
of the Code. This is compounded in disputes in which the

60a
United States Trustee, who is given standing under
section 307 of the Bankruptcy Code to “raise and . . .
appear and be heard on any issue in any case or
proceeding under [the Code],” decides to become
involved. In such contexts, courts conclude that the twoparty arbitration agreement does not extend to the
dispute. See generally In re Hostess Brands, Inc., 2013
Bankr. LEXIS 79 at *7-10 (Bankr. S.D.N.Y. Jan. 7,
2013), citing among such cases Kraken Investments Ltd.
v. Jacobs (In re Salander-O’Reilly Galleries, LLC), in
which District Judge Seibel stated, “[T]here is no
justification for binding creditors to an arbitration clause
with respect to claims that are not derivative of one who
is a party to it.” 475 B.R. 9, 24 (S.D.N.Y 2012) (citing
Hays & Co. v. Merrill Lynch, Pierce, Fenner & Smith,
Inc., 885 F.2d 1149, 1155 (3d Cir. 1989)); see also Note,
“Jurisdiction in Bankruptcy Proceedings: A Test Case
for Implied Repeal of the Federal Arbitration Act,” 117
Harv. L. Rev. 2296, 2302 (2004) (citing EEOC v. Waffle
House, Inc., 534 U.S. 279, 293-94 (2002) (“It goes without
saying that a contract [to arbitrate] cannot bind a nonparty.”)).
However, the multi-party nature of bankruptcy cases
and proceedings is not the only clear conflict between the
FAA and the Bankruptcy Code. It is, rather, indicative
of a larger conflict inherent in the underlying structure
of the Bankruptcy Code, in which Congress chose to stay
and ultimately abrogate individual contract rights to
enable the claims against the debtor and the debtor’s
assets to be assembled and determined in one forum
under the supervision of one judge consistent with the
Code’s dictates, in contrast to piecemeal determinations

61a
by other bodies, including different arbitration panels.
This clear policy, implicit throughout the Bankruptcy
Code and the related provisions of the Judicial Code that
create the bankruptcy courts, differs from the mere
conferral of jurisdiction on a court to decide a federal
claim, which, as recognized in CompuCredit v.
Greenwood, 132 S. Ct. at 670-71, is insufficient to override
the FAA. In 28 U.S.C. §§ 1334(b) and 157(a)-(b),
Congress granted specialized, though deep, jurisdiction
to the bankruptcy courts over issues central to the
bankruptcy process in the interests of efficiency,
expertise and fairness. Continental Ins. Co. v. Thorpe
Insulation Co. (In re Thorpe Insulation Co.), 671 F.3d
1011, 1022-23 (9th Cir. 2012), cert. denied., 133 S. Ct. 119
(2012); MBNA America Bank, N.A. v. Hill, 436 F.3d at
108; Phillips v. Congelton, L.L.C. (In re White Mining
Co., L.L.C.), 403 F.3d 164, 169-79 (4th Cir. 2005); Ins. Co.
of N. Am. v. NGC Settlement Trustee & Asbestos Claims
Mgmt. Corp. (In re Nat’l Gympsum Co.), 118 F.3d 1056,
1069 (5th Cir. 1997).
In light of that policy, courts have long held that when
disputes pending before the bankruptcy court are at the
core of the adjustment of debtor/creditor relations,
whether as a matter of law or because of their
importance to the conduct of the bankruptcy case, they
should not be subject to arbitration. Id. Thus,
recognizing the purely bankruptcy nature of the priority
of a union’s claims in bankruptcy, the Second Circuit in
Bohack affirmed and adopted the District Court’s
opinion that such issues were not subject to arbitration,
although the amount of the union’s claims were properly
arbitrable. 431 F. Supp. at 653-55, aff’d, 567 F.2d at 237.

62a
And, recognizing the separate though related policy of
efficiently managing bankruptcy cases in the bankruptcy
court, the Second Circuit held in In re United States
Lines that where declaratory judgment proceedings
were integral to the bankruptcy court’s ability to
preserve and equitably distribute a post-reorganization
trust’s assets, arbitration was not required. 197 F.3d at
631. See also Geron v. Cohen 2013 U.S. Dist. 188737, *613 (S.D.N.Y. Mar. 21, 2013) (stay under section 3 of FAA
properly denied where litigation over prepetition claim
was “at the center of various causes of action in at least
37 filed adversary proceedings and many tolled actions in
addition to Defendant’s underlying proceeding”). As
stated by the Fifth Circuit in holding that the bankruptcy
court properly exercised its discretion not to stay under
section 3 of the FAA an adversary proceeding to enforce
a debtor’s discharge,
We think that, at least, where the cause of action
at issue is not derivative of the pre-petition legal
or equitable rights possessed by a debtor but
rather is derived entirely from the federal rights
conferred by the Bankruptcy Code, a bankruptcy
court retains significant discretion to assess
whether arbitration would be consistent with the
purpose of the Code, including the goal of
centralized resolution of purely bankruptcy
issues, the need to protect creditors and
reorganizing debtors from piecemeal litigation,
and the undisputed power of a bankruptcy court
to enforce its own orders.
In re Nat’l Gypsum, 118 F.3d at 1069.

63a
In contrast, it is clear that the Bankruptcy Code and
the FAA do not conflict when the dispute at issue does
not implicate core aspects of the adjustment of
debtor/creditor relations but, instead, was and remains
rooted in the pre-bankruptcy past. Crysen/Montenay
Energy Co. v. Shell Oil Co. (In re Crysen/Montenay
Energy Co.), 226 F.3d 160, 165-66 (2d Cir. 2000), cert.
denied, 532 U.S. 920 (2001); Hays & Co. v. Merrill Lynch,
Pierce, Fenner & Smith, Inc., 885 F.2d 1149, 1161 (3d Cir.
1989)
At times it is not entirely clear whether courts have
denied a request for a stay under section 3 of the FAA
because they have concluded that arbitration would
conflict with the Bankruptcy Code or, instead, based on
their determination that the Bankruptcy Code so infuses
the issue that the parties could not be said to have
agreed to arbitrate it. One could argue, for example,
that the purely bankruptcy issue of the extent and
enforcement of a debtor’s discharge, which frees the
debtor from the personal imposition of a debt, could not
have been intended by the parties to be covered by an
arbitration provision in an agreement that gives rise to
that very debt. Indeed, two courts have held that the
issuance of the discharge removes an action to enforce
the discharge from the ambit of an arbitration provision
in the agreement that gave rise to the discharged debt.
See Harrier v. Verizon Wireless Communications, 903
F. Supp. 2d 1281, 1283-84 (S.D. Fla. 2012), and Jernstad
v. Greentree Servicing, LLC, 2012 U.S. Dist. LEXIS
108988, *5-6 (N.D. Ill. Aug. 2, 2012).
I conclude, however, like the court in Mann v.
Equifax Information Services, LLC, 2012 U.S. Dist.

64a
LEXIS 103210, *11-12 (E.D. Mich. May 24, 2013), that
the better approach would be to analyze the issue
through the lens of whether Congress intended in the
Bankruptcy Code and related sections of the Judicial
Code to render an action to enforce the discharge nonarbitrable.
I do that in part because I am persuaded that the
discharge itself does not, in the words of Section 2 of the
FAA, render the contract “revocable”. The bankruptcy
discharge frees the debtor from personal liability for
pre-bankruptcy debts but does not eliminate all
contractual obligations.
For example, liens and
leasehold interests ride through bankruptcy cases and
may be enforced, in rem, if the debtor who has received
the discharge does not continue to pay the underlying
debt. See generally Johnson v. Home State Bank, 501
U.S. 78, 84-5 (1991); In re Dabrowski, 257 B.R. 394, 415
(Bankr. S.D.N.Y 2011).
It has also long been clear that rejection under
section 365 of the Bankruptcy Code of a contract that
includes an arbitration provision does not abrogate an
obligation to arbitrate under such provision. See Truck
Drivers Local Union No. 807, International
Brotherhood of Teamsters v. Bohack Corp., 541 F.2d 312,
321 n.15 (2d Cir. 1976); see also Top Rank, Inc. V. Ortiz
(In re Ortiz), 400 B.R. 755, 762-63 (C.D. Cal. 2009).
Moreover, given the broad language of the
arbitration provision here, it cannot be said that the
parties clearly did not contemplate arbitration of all
disputes related to the debt, including whether GE
Capital has violated the discharge of that debt. See
Shearson/American Express v. McMahon, 482 U.S. at

65a
220, in which the Supreme Court held that Securities and
Exchange Act and RICO claims, though arguably at best
remotely contemplated when the parties agreed to
arbitrate, were nevertheless covered by their arbitration
agreement.
Given the strong policy in favor of arbitration,
therefore, and Congress’s use of the word “revocation”
in Section 2 of the FAA, I believe that the fact that Ms.
Belton’s discharge is at issue as opposed to other claims
does not remove the parties’ agreement to arbitrate
from the ambit of their present dispute.
That still leaves, however, the question whether
Congress implicitly provided that this type of dispute
not be subject to arbitration based on the policy conflicts
of “near polar extremes” that often arise between the
FAA and the Bankruptcy Code, described above.
MBNA America Bank, N.A. v. Hill, 436 F.3d at 108.
To analyze that issue, the Second Circuit in MBNA
America Bank adopted the following approach, which
continues to govern today. First, “[b]ankruptcy courts
generally do not have discretion to compel arbitration of
‘non-core’ bankruptcy matters [that is, matters not
constituting core proceedings under 28 U.S.C. § 157(b)],
or matters that are simply ‘related to’ bankruptcy cases.
As to these matters, the presumption in favor of
arbitration usually trumps the lesser interest of
bankruptcy
courts
in
adjudicating
non-core
proceedings.” Id. (internal citations omitted). On the
other hand, “[b]ankruptcy courts are more likely to have
discretion to refuse to compel arbitration of core
bankruptcy matters which implicate more pressing
bankruptcy concerns. However, even as to core

66a
proceedings, the bankruptcy court will not have
discretion to override an arbitration agreement unless it
finds that the proceedings are based on provisions of the
Bankruptcy Code that inherently conflict with the
[FAA] or that arbitration of the claim would necessarily
jeopardize the objectives of the Bankruptcy Code. This
determination requires a particularized inquiry into the
nature of the claim and the facts of the specific
bankruptcy. The objectives of the Bankruptcy Code
relevant to this inquiry include the goal of centralized
resolution of purely bankruptcy issues, the need to
protect creditors and reorganizing debtors from
piecemeal litigation, and the undisputed power of a
bankruptcy court to enforce its own orders.” Id.
(internal quotations and citations omitted). See also
Koper v. Trinity Christian Ctr. of Santa Ana, Inc. (In re
Koper), 2014 Bankr. LEXIS 4168, *26-7 (Bankr.
E.D.N.Y. Sept. 30, 2014) (asserted conflict must impinge
upon a “substantially core” function of the bankruptcy
process); In re Hostess Brands, Inc., 2013 Bankr.
LEXIS 79, *7-14 (Bankr. S.D.N.Y. Jan. 7, 2013) (same).
MBNA America Bank, N.A. v. Hill also provides
considerable guidance, in strong dicta, on how to apply
the foregoing analysis to the specific dispute before this
Court, as do several decisions that directly address
whether a bankruptcy court should decline to stay
proceedings to enforce a debtor’s discharge in light of a
motion under section 3 of the FAA.
GE Capital contends that because the discharge
issue is not a multi-party dispute, the Bankruptcy Code’s
centralization policy does not apply in favor of
maintaining the bankruptcy court’s jurisdiction. That is

67a
true as far as it goes, but, as noted by the decisions cited
above and discussed below, the conflict between the
FAA and the Bankruptcy Code extends beyond
protecting parties in interest who were not party to the
underlying arbitration agreement; the Court may also
properly refuse to stay a proceeding that is fundamental
to the adjustment of the debtor/creditor relationship if
to do otherwise would seriously impinge on a function
that it has been established to carry out. MBNA
America Bank, 436 F.3d at 108; In re Nat’l Gypsum, 118
F.3d at 1071 (“We are convinced that arbitration of a
core bankruptcy adversary proceeding brought to
determine whether [defendant’s] collection efforts were
barred by the section 524(a) discharge injunction . . . as
a nondebtor-derivative action to enforce asserted rights
created by the Bankruptcy Code that are completely
divorced from [the debtor’s] prepetition rights under the
[defendant’s agreement], would be inconsistent with the
Bankruptcy Code.”).
As noted by Nat’l Gypsum, 118 F.3d at 1070-71, the
discharge is very clearly a fundamental, if not the
fundamental, right obtained by a debtor in bankruptcy,
whether the debtor is an individual or a corporation or
other entity. See also Marrama v. Citizens Bank of
Mass., 549 U.S. 365, 367 (2007); Schneiderman v.
Bogdanovich (In re Bogdanovich), 292 F.3d 104, 107 (2nd
Cir. 2007).
Let me amplify on that point, because the language
in the foregoing cases, albeit stating what those courts
believe is an obvious proposition, nevertheless seems
somewhat deracinated. This Court sees hundreds of
individual debtors in bankruptcy every month, most of

68a
them in Chapter 7 liquidations and in the Chapter 13
context where they are seeking to save their house or
other valuable property subject to liens through an
income payment plan lasting from three to five years,
although I also see them in Chapter 11 cases (in fact, I
confirmed one today). These cases are not easy for the
debtors. Generally speaking, although there is nothing
shameful in filing for bankruptcy relief -- it is a federally
recognized right supported by ample policy reasons -the vast majority of debtors view bankruptcy as a last
resort and seriously regret having to invoke it.
When they file for bankruptcy relief, they subject
themselves, moreover, to scrutiny of their financial
condition at the most minute level. Congress has
carefully enacted provisions of the Bankruptcy Code and
Bankruptcy Rules to preclude those who do not fall into
the category of the “honest but unfortunate debtor” from
receiving a discharge of particular debts or an overall
discharge, so that any creditor, in addition to being able
to take essentially unfettered discovery of the debtor’s
financial condition under Bankruptcy Rule 2004, can also,
if there is a basis, pursue the denial of his or her
discharge or the dischargeability of a particular debt
under sections 727(a) and 523(a) of the Bankruptcy Code,
respectively.
Why then do debtors seek this relief, which subjects
them to such scrutiny and the liquidation and
distribution to their creditors, in a Chapter 7 case, of
their non-exempt property, and, in Chapter 11 and
Chapter 13 cases, of as much of their ongoing income as
is required by those chapters of the Code? Why do they
file a case in which, as is the practice in this district, at

69a
least, Chapter 7 trustees will require them to turn over
their engagement ring if that ring exceeds the value of
the exemption, which is relatively small? Why? Because
they need the discharge. The discharge is why they
subject themselves to everything else. If a party
subsequently violates the discharge, the debtor’s reason
for seeking relief and enduring all of the constraints
imposed by Congress in the Bankruptcy Code go for
nothing. Indeed, if the violation persists the case itself
can be said to have been for nothing, which, of course,
means that the effectiveness of bankruptcy as a fair,
collective remedy for creditors and a fresh start for
debtors is eviscerated.1
In other words, there is nothing more fundamental to
bankruptcy relief than the discharge and its related
fresh start. That policy underlies the Bankruptcy Code
and Congress’s determination, rooted in Article 1,
Section 8 of the Constitution, that debtors should be able
to discharge their debts and creditors should have the
benefit of uniform bankruptcy laws premised on that
ultimate quid pro quo. It is perhaps for this reason that
every case, whether in its holding or in dicta, that has
considered whether, standing alone, a proceeding to
enforce the discharge is subject to arbitration under the
FAA has concluded, to the contrary, that it is not

1

One could argue that the reporting of a discharged debt as still
outstanding when the credit report also shows that the debtor has
been in bankruptcy is even a worse result, indicating to those who
are considering providing credit in the future that the debtor has
fallen into the category of the dishonest debtor who did not receive
a discharge.

70a
properly arbitrable and that it should, instead, be
determined by the bankruptcy court.
In addition to the three district court cases that I
have already cited on the issue, Harrier v. Verizon
Wireless, 903 F. Supp. 2d at 1283-84; Jernstad v.
Greentree Servicing, LLC, 2012 U.S. Dist. LEXIS 108900
at *5-6; and Mann v. Equifax Info. Servs, 2013 U.S. Dist.
LEXIS 103210 at *12-13, in which the court stated that if
the debtor had been pursuing an action to enforce the
discharge as opposed to an action primarily for relief
under the Fair Credit Reporting Act, it too would have
compelled the proceeding to go forward in federal court,
the Fifth Circuit in Nat’l Gypsum, 118 F.3d 1056, held
that a proceeding to determine the scope of and enforce
a Chapter 11 debtor’s discharge should be litigated in the
bankruptcy court rather than in arbitration. See also
Hooks v. Acceptance Loan Co., 2011 U.S. Dist. LEXIS
76544, *14 (M.D. Ala. July 14, 2011) (stay under section 3
of FAA denied where action to enforce discharge was
core and would interfere with the bankruptcy court’s
authority to enforce its orders); Grant v. Cole (In re
Grant), 281 B.R. 721, 726 (Bankr. S.D. Ala. 2000) (same).
Cf. In re Koper, 2014 Bankr. LEXIS 4168, *36-38
(denying FAA section 3 stay of non-dischargeability
proceeding under section 523(a) of the Bankruptcy
Code).
Moreover, the Second Circuit in MBNA America
Bank, 436 F.3d at 104, articulated in very strong dicta
that when the debtor’s fresh start is at issue, an
enforcement proceeding in the bankruptcy court should
not be stayed in favor of arbitration. In that case, a
debtor plaintiff sought the imposition of sanctions under

71a
section 362(h) of the Bankruptcy Code for a creditor’s
alleged breach of the automatic stay under section 362(a)
of the Code. The Circuit went out of its way to point out
that since the proceeding had been commenced the
debtor had received her discharge and therefore her
fresh start. Id. at 110. In essence then, the debtor was
looking only for money from the defendant. Moreover,
these damages did not include the money that the
defendant had allegedly withheld in breach of the
automatic stay, because that sum had been repaid, but,
rather, were the cost of seeking relief plus punitive
sanctions for the plaintiff and a class of similarlysituated debtors. Id.
As the Circuit stated, “First, and most importantly,
arbitration of Hill’s § 362(h) claim would not jeopardize
the important purposes that the automatic stay serves:
providing debtors with a fresh start . . . .” Id. at 109. The
decision goes on to list other purposes of the automatic
stay: “protecting the assets of the estate and allowing
the bankruptcy court to centralize disputes concerning
the estate,” id.; however, its first and fundamental
purpose was to provide debtors with a fresh start. As
the Circuit further stated,
Hill’s bankruptcy case is now closed and she has
been discharged. Resolution of Hill’s claim
against MBNA therefore cannot affect an
ongoing reorganization, and arbitration would not
conflict with the objectives of the automatic stay.
MBNA has reimbursed Hill for the $159.01
payment it extracted from her bank account, and
Hill no longer requires the protection of the stay to
ensure her fresh start.

72a
Id. at 110.
From that language, it is clear that if the issue before
me had been presented to the Second Circuit in the
MBNA America Bank case, the Court would have
denied the motion to compel arbitration, as did the Fifth
Circuit in In re Nat’l Gypsum Co., 118 F.3d at 1068-70.
Thus, although both the MBNA and Nat’l Gypsum
cases hold that the mere fact that an issue before the
Court is “core” under 28 U.S.C. § 157(b) will not compel
the denial of a motion under section 3 of the FAA,
requiring, instead, a case-by-case analysis of whether
the issue is so fundamental to the Bankruptcy Code and
its policies that it inherently conflicts with the FAA,
they recognize that nothing is more fundamental to the
adjustment of debtor/creditor relations than the
discharge, an event that is not derived from the parties’
pre-bankruptcy conduct but, rather, is the bankruptcy
case’s culminating event.
Given that Congress established the bankruptcy
courts for this fundamental purpose, under the logic of
the foregoing cases Ms. Belton should have to prove
nothing more in order to defeat GE Capital’s motion to
compel arbitration. Nevertheless, other, lesser concerns
support her objection to arbitration, as well. As noted
by the Fifth Circuit in Nat’l Gypsum, “In the
bankruptcy context, . . . efficient resolution of claims and
conservation of the bankruptcy estate assets are
integral purposes of the Bankruptcy Code. Accordingly,
insofar as efficiency concerns might present a genuine
conflict between the Federal Arbitration Act and the
Code -- for example where substantial arbitration costs
or severe delays would prejudice the rights of creditors

73a
or the ability of a debtor to reorganize -- they may well
represent
legitimate
considerations”
against
arbitration. 118 F.3d at 1069 n.21. Here, three such
concerns exist.
As discussed above, although American Express
Company v. Italian Colors Restaurant, 133 S. Ct. at
2304, limited the “effective vindication” doctrine, the
Court nevertheless stated that it “would certainly cover
a provision in an arbitration agreement forbidding the
assertion of certain statutory rights. And it would
perhaps cover filing and administrative fees attached to
arbitration that are so high as to make access to the
forum impracticable.” Id. at 2310-11, quoting Green Tree
Fin. Corp.-Ala. v. Randolph, 531 U.S. at 90, for the
proposition that “It may well be that the existence of
large arbitration costs would preclude a litigant . . . from
effectively vindicating her federal statutory rights.”
The agreement at issue here provides for GE
Capital’s payment of the costs and fees of the
arbitrator[s] up to $2,500, as well as recognizes the
potential for greater liability, which, although there is no
express attorneys’ fees provision, could conceivably
include attorneys’ fees occasioned by GE Capital’s
breach of the discharge. In Italian Colors, the Court
expressed its disagreement with applying the “effective
vindication” doctrine in a way that would “require courts
to proceed case by case to tally the costs and burdens to
particular plaintiffs in light of their means, the size of
their claims, and the relative burden on the [parties].”
133 S. Ct. at 2311-12 (internal citation and quotations
omitted). Is it not logical, however, as well as far from
objectionable “tallying”, to assume that Congress meant

74a
debtors who have recently emerged from bankruptcy -having had their assets liquidated with the exception of
statutorily exempt property -- to gain free access to a
court to enforce their discharge, rather than running the
risk that they would have to pay for even a portion of the
cost of an arbitration decision? I believe the answer to
this question is clear, as is the risk that the arbitrator[s]’
costs in the present dispute will exceed $2,500.
The timely and effective enforcement of the
discharge also may be critically important for a debtor’s
fresh start, the difference between a debtor’s resuming
normal economic life and destitution. Accordingly, I
asked the parties to brief whether rapid, equitable relief
is available under the arbitration provision at issue here.
GE Capital correctly pointed out, first, that a yearand-a-half passed between the issuance of Ms. Belton’s
discharge and the commencement of this proceeding,
arguing from this fact that there cannot be any urgency
here. The complaint asserts, however, that Ms. Belton
brought this action only after she learned that her credit
report still reflected her debt as outstanding, and, in
keeping with the fact that the discharge is an injunction,
no debtor should have to wait any longer than is
necessary to ensure that his or her discharge will be
enforced. For example, if the complaint is correct, every
day that a credit report is inaccurate is another day that
the debtor believes she must pay her debt or be turned
down for new credit. This raises two concerns -- the
ability of an arbitration panel to grant timely relief and
the ability of an arbitration panel to grant effective
relief. Having considered the parties’ arguments, I
conclude that neither of these concerns is fully satisfied.

75a
Thus, while it is reasonably clear that, under the
arbitration rules applicable to the parties’ agreement,
one party may seek expedited relief through an
emergency arbitrator requested to be appointed pending
the appointment of the arbitration panel, there is bound
to be delay and uncertainty regarding that procedure.
Also, while it is generally accepted that arbitrators,
particularly those acting under an arbitration provision
like the one at issue here which recognizes the right to
equitable relief, have the ability to award such relief, see,
e.g., Next Step Medical Co., Inc. v. Johnson & Johnson
Int’l, 619 F.3d 67, 70 (1st Cir. 2010); Sperry Int’l Trade,
Inc. v. Gov‘t of Israel, 689 F.2d 301, 303 (2d Cir. 1982);
Southern Seas Navigation Ltd. of Monrovia v. Petroleos
Mexicanos of Mexico City, 606 F. Supp. 692, 693-94
(S.D.N.Y. 1985), and, although the issue is not entirely
free from doubt, most would agree that the district
courts, and presumably the bankruptcy courts, have the
power to issue an injunction to preserve the status quo,
at least, pending completion of an arbitration, see, e.g.,
Next Step Medical, 619 F.3d at 70; see also Performance
Unlimited, Inc. v. Questar Publishers, Inc., 52 F.3d
1373, 1377-80 (6th Cir. 1995) (citing cases), the procedure
for obtaining injunctive relief again is uncertain and
cumbersome, with enforcement power resting in the
district court, not the arbitrator or arbitration panel that
issued the decision. It is more likely that Congress
intended the prompt and well established enforcement
of the discharge to be left to a single bankruptcy judge
who issued it. Whether the matter is resolved on the
merits or, as is common in bankruptcy cases, settled,
complete and consistent relief is more likely to occur if it
is determined by -- and with the possible remedial

76a
supervision of -- a bankruptcy court than on an
arbitration-by-arbitration basis of separate alleged
violations of the discharge. Indeed, this Court routinely
handles such matters.
Finally, obtaining an effective remedy in arbitration
(regardless whether the plaintiff or the defendant
prevails) is today an open issue because of constitutional
separation-of-powers concerns raised by at least three
Courts of Appeal, although the Supreme Court may
eventually render this concern moot.2
As the Supreme Court has often observed, “The FAA
reflects the overarching principle that arbitration is a
matter of contract.” American Express Co. v. Italian
Colors Rest., 133 S. Ct. at 2306. Thus, in section 2 of the
FAA Congress required the determination by
arbitrators, who do not have life tenure and whose salary
is not protected by the Constitution -- indeed, who do not
even have to be lawyers, let alone have to be judges -- of
disputes that the parties consented to arbitrate; and,
under section 3 of the FAA, Congress directed that
federal courts stay proceedings pending before them if
they are covered by such agreements. In addition, under
section 10 of the FAA the courts’ review of arbitrators’
decisions is extremely limited, as recognized by countless
federal courts, to instances where (a) the award was
procured by corruption, fraud, or undue means, (b) where
there was evident partiality or corruption in the
arbitrators, or either of them, (c) where the arbitrators
were guilty of misconduct in refusing to postpone the
2

The separation of powers issue was raised but not ruled on in In
re Nat’l Gypsum Co., 118 F.3d at 1071 n.26.

77a
hearing, upon sufficient cause shown, or in refusing to
hear evidence pertinent and material to the controversy,
or of any other misbehavior by which the rights of a party
have been prejudiced, or (d) where the arbitrators
exceeded their powers or so imperfectly executed them
that a mutual, final, and definite award upon the subject
matter submitted was not made. 9 U.S.C. § 10(a).
This Court is acutely aware that following Stern v.
Marshall, 131 S. Ct. 2594 (2011), three Courts of Appeal
have held, based on separation-of-powers principles, that
bankruptcy courts, whose decisions, of course, are
subject to much more review than is provided in section
10 of the FAA -- and are, in fact, courts -- cannot render
a final decision on matters submitted to them on consent
if those matters do not implicate fundamental aspects of
the adjustment of debtor/creditor relations. See Frazin
v. Haynes & Boone, L.L.P. (In re Frazin), 732 F.3d 313,
320 n.3 (5th Cir. 2013); Wellness Int’l Network Ltd. v.
Sharif, 727 F.3d 751, 768-72 (7th Cir. 2013), cert. granted
in part on the issue of consent, 134 S. Ct 2901 (2014); and
Waldman v. Stone, 698 F.3d 910, 917-18 (6th Cir. 2012),
cert. denied, 133 S. Ct. 1604 (2013). Each of those
decisions, deriving from a broad reading of Stern’s
statement that “Article III of the Constitution provides
that the judicial power of the United States may be
vested only in courts whose judges enjoy the protections
set forth in that Article,” 131 S. Ct. at 2620, held that the
fact that bankruptcy judges do not have life tenure and
that their salaries are subject to congressional approval
creates a sufficient non-waivable structural separationof-powers concern that bankruptcy courts cannot decide
matters on consent by final order.

78a
To hold that, notwithstanding this reading of the
Constitution, federal courts must, except for the reasons
stated in section 10 of the FAA, do the bidding of
arbitrators chosen on a piecemeal basis, without any
tenure or salary protection (indeed, whose salary may be
paid by only one of the parties) because Congress said so,
boggles the mind. I believe that the faulty logic actually
lies in the foregoing decisions, and hope that, as was said
of the Aethelred the Unready, having begun in cruelty
(or more aptly, amour-propre), and moved on to
wretchedness, they will be overturned in disgrace. Until
that happens, however, one cannot be assured that any
ruling by an arbitration panel can be given the deference
required by section 10 of the FAA, and instead must be
subject to de novo review. On the other hand, it should
be clear from Stern that this Court has the power to
determine by final order fundamental issues historically
pertaining to the adjustment of debtor/creditor
relations, 131 S. Ct. at 2620; see also id. at 2621 (Scalia,
J., concurring opinion); and as noted, nothing is more
fundamental to the adjustment of debtor/creditor
relations than the enforcement of a debtor’s discharge.
Therefore, for all of the foregoing reasons, I conclude
that GE Capital’s motion should be denied. Counsel for
the debtor should submit a proposed order to chambers
consistent with this ruling.
Dated: White Plains, New York
November 10, 2014
/s/ Robert D. Drain
United States
Bankruptcy Judge

79a

--------------------------------------------------X
In re:
3/6/2019
NYREE BELTON,
Debtor.
--------------------------------------------------X
NYREE BELTON, Debtor and
Plaintiff on behalf of herself and all
others similarly situated,
15
1934
Plaintiff,
(VB)
-againstGE CAPITAL CONSUMER
LENDING, INC. a/k/a GE MONEY
BANK,
Defendant.
--------------------------------------------------X
In re:
KIMBERLY BRUCE,
Debtor.
--------------------------------------------------X
KIMBERLY BRUCE, Debtor and
Plaintiff on Behalf of herself and all
others similarly situated,
15
3311
Plaintiff,
(VB)
-against-

80a
CITIGROUP INC., CITIBANK,
N.A., and CITIBANK
(SOUTH DAKOTA), N.A.,
Defendants.
--------------------------------------------------X
It is hereby
That for the reasons stated in the Court’s
Opinion and Order dated March 4, 2019, motions for
reconsideration are granted; This Court’s October 14,
2015, Memorandum Decision and Order to remand
contained therein, are vacated; the Bankruptcy Court’s
orders denying defendants-appellants’ motions to
compel arbitration are affirmed; the Bankruptcy Court
is directed to conduct further proceedings consistent
with this Court’s Opinion and Order.
New York, New York
March 6, 2019

By:
/s/

THIS DOCUMENT WAS ENTERED
ON THE DOCKET ON 3/6/2019

